<html>
<title> - PRIVATE SECTOR PROGRAMS THAT ENGAGE STUDENTS IN STEM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                        PRIVATE SECTOR PROGRAMS
                      THAT ENGAGE STUDENTS IN STEM

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 9, 2014

                               __________

                           Serial No. 113-60

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov



                                   _____

                         U.S. GOVERNMENT PRINTING OFFICE 

86-898 PDF                     WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
VACANCY
                                 ------                                

                Subcommittee on Research and Technology

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   FEDERICA WILSON, Florida
RANDY HULTGREN, Illinois             ZOE LOFGREN, California
STEVE STOCKMAN, Texas                SCOTT PETERS, California
CYNTHIA LUMMIS, Wyoming              AMI BERA, California
DAVID SCHWEIKERT, Arizona            DEREK KILMER, Washington
THOMAS MASSIE, Kentucky              ELIZABETH ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            ROBIN KELLY, Illinois
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas





















                            C O N T E N T S

                            January 9, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Larry Bucshon, Chairman, Subcommittee 
  on Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     1
    Written Statement............................................     5

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     6
    Written Statement............................................     7

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    10
    Written Statement............................................    11

                               Witnesses:

                                Panel I

Mr. Dean Kamen, Founder, For Inspiration and Recognition of 
  Science and Technology (FIRST), Founder and President, DEKA 
  Research & Development Corporation
    Oral Statement...............................................    12
    Written Statement............................................    14

Mr. Hadi Partovi, Co-founder and CEO, Code.org
    Oral Statement...............................................    26
    Written Statement............................................    28

Dr. Kemi Jona, Director, Office of STEM Education Partnerships, 
  Research Professor, Learning Sciences and Computer Sciences, 
  Northwestern University
    Oral Statement...............................................    53
    Written Statement............................................    56

Dr. Phillip Cornwell, Vice President for Academic Affairs, 
  Professor of Mechanical Engineering, Rose-Hulman Institute of 
  Technology
    Oral Statement...............................................    78
    Written Statement............................................    81

Discussion.......................................................    85

                                Panel II

Ms. Ellana Crew, 12th Grade, South River High School, Edgewater, 
  Maryland
    Oral Statement...............................................   109
    Written Statement............................................   111

Mr. Brian Morris, 12th Grade, Chantilly Academy, Chantilly, 
  Virginia
    Oral Statement...............................................   113
    Written Statement............................................   115

Mr. Daniel Nette, 11th Grade, George Mason High School, Falls 
  Church, Virginia
    Oral Statement...............................................   116
    Written Statement............................................   117

Mr. Vishnu Rachakonda, 12th Grade, Eleanor Roosevelt High School, 
  Greenbelt, Maryland
    Oral Statement...............................................   119
    Written Statement............................................   121

Discussion.......................................................   123

             Appendix I: Answers to Post-Hearing Questions

Mr. Dean Kamen, Founder, For Inspiration and Recognition of 
  Science and Technology (FIRST), Founder and President, DEKA 
  Research & Development Corporation.............................   134

Mr. Hadi Partovi, Co-founder and CEO, Code.org...................   137

Dr. Phillip Cornwell, Vice President for Academic Affairs, 
  Professor of Mechanical Engineering, Rose-Hulman Institute of 
  Technology.....................................................   142

 
          PRIVATE SECTOR PROGRAMS THAT ENGAGE STUDENTS IN STEM

                              ----------                              


                       THURSDAY, JANUARY 9, 2014

                  House of Representatives,
                    Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Larry 
Bucshon [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Bucshon. The Subcommittee on Research and 
Technology will come to order.
    Good morning, everyone. Welcome to today's hearing titled 
``Private Sector Programs that Engage Students in STEM,'' which 
we all know is a very important subject.
    In front of you are packets containing the written 
testimony, biographies and Truth in Testimony disclosures for 
today's witnesses. I now recognize myself for five minutes for 
an opening statement.
    I am happy to call to order the first Research and 
Technology Subcommittee hearing of the new year. Today we will 
learn about private sector initiatives in science, technology, 
engineering and mathematics, or STEM, education and how these 
companies, businesses and organizations engage students in 
these important fields.
    A report released by the National Science Board in 2012 
indicates that the science and engineering workforce 
historically grows faster than the total workforce. Although 
the science and engineering growth rate has maintained a higher 
rate than the total workforce, the last decade has seen much 
lower growth.
    One of the most essential aspects to keeping America at the 
forefront of STEM innovation, advancement and development is 
engaging students at a young age and keeping them interested in 
pursuing STEM degrees and careers.
    As a cardiothoracic surgeon and father of four children 
between the ages of 9 and 20, I understand that such programs 
and activities are necessary to enhance America's economic 
growth and competitiveness. With the federal government 
spending nearly $3 billion across 13 federal agencies on STEM 
education programs each year, we must ensure the government is 
leveraging rather than duplicating private sector STEM 
education initiatives.
    Our hearing today will provide a unique opportunity for our 
first panel of witnesses to discuss the innovative projects and 
programs taking place at their private sector business and 
educational institutions, and for our second panel of witnesses 
to discuss their personal experiences with these types of 
initiatives.
    I look forward to hearing from all of our witnesses and I 
would like to thank them for their participation and offering 
their time and insight into the private sector's success in 
STEM education.
    [The prepared statement of Mr. Bucshon follows:]

Prepared Statement of Subcommittee on Research and Technology Chairman 
                             Larry Bucshon

    I am happy to call to order the first Research and Technology 
Subcommittee hearing of the year. Today we will learn about private 
sector initiatives in science, technology, engineering and mathematics, 
or STEM, education and how these companies, businesses and 
organizations engage students in these important fields.
    A report released by the National Science Board in 2012 indicates 
that the science and engineering workforce historically grows faster 
than the total workforce. Although the science and engineering growth 
rate has maintained a higher rate than the total workforce, the last 
decade has seen much lower growth.
    One of the most essential aspects to keeping America at the 
forefront of STEM innovation, advancement and development is engaging 
students at a young age and keeping them interested in pursuing STEM 
degrees and careers.
    As a cardiothoracic surgeon and father of four children between the 
ages of 9 and 20, I understand that such programs and activities are 
necessary to enhance America's economic growth and competitiveness.
    With the federal government spending nearly $3 billion dollars 
across thirteen federal agencies on STEM education programs each year, 
we must ensure the government is leveraging rather than duplicating 
private sector STEM education initiatives.
    Our hearing today will provide a unique opportunity for our first 
panel of witnesses to discuss the innovative projects and programs 
taking place at their private sector business and educational 
institutions, and for our second panel of witnesses to discuss their 
personal experiences with these types of initiatives.
    I look forward to hearing from all of our witnesses and I would 
like to thank them for their participation and offering their time and 
insight into the private sector's success in STEM education.

    Chairman Bucshon. At this point I recognize the Ranking 
Member, the gentleman from Illinois, for an opening statement, 
five minutes.
    Mr. Lipinski. Thank you, Chairman Bucshon. I want to thank 
all of our witnesses for being here today.
    One of the reasons that I had joined this Committee when I 
first came to Congress is because of my strong interest in 
working to improve math and science education in this country. 
I am one of only a dozen engineers in the House and Senate, and 
my wife was a math major in college and, unlike me, her STEM 
training led her directly into a career as an actuary. So from 
my own family experiences and what I have seen and heard from 
others, I am very aware of how important it is that we do a 
good job of engaging and educating our students at all levels 
in STEM fields.
    But with the release last month of the latest PISA results, 
we were reminded yet again of the troubling statistics on the 
state of U.S. math and science education. U.S. K-12 students 
rank in the middle of the pack in international comparisons of 
math and science aptitude. We see the problems at all job 
levels. I am constantly hearing from manufacturing companies in 
my district that they have a hard time finding employees who 
have even basic math and science skills. In higher education, 
we have far too few students pursuing and completing degrees in 
certain STEM fields to meet the needs of domestic industry. For 
example, less than 2.4 percent of college students graduate 
with a degree in computer science, despite tremendous demand 
for these skills, and that number has dropped over the last 
decade.
    Our troubles start from the earliest grades and are part of 
a negative feedback cycle that we have to break. Students who 
aren't learning the necessary skills by the time they graduate 
high school are much less likely to pursue, and to succeed, in 
STEM fields in college. When we lose an undergraduate student 
from a STEM field, we lose a scientist or engineer who could 
potentially pursue a career in teaching the next generation.
    We know these to be complex problems with no easy or one-
size-fits-all solution. That is why partnerships between the 
private sector, Federal and state governments, colleges, 
universities, local school districts, national labs, science 
museums, zoos and aquaria, and all types of nonprofits are more 
important today than ever. The United States still has some of 
the best K-12 schools, colleges and universities in the world, 
and our top students at all levels compete easily with the top 
students from around the world. That is why I am glad we have 
witnesses here today that can speak to the types of STEM 
partnerships needed to engage young minds at an early age and 
keep them engaged in STEM fields. In particular, Northwestern 
University's Office of STEM Education Partnerships connects K-
12 teachers and students to world-class STEM resources of 
Northwestern University and corporations in the state of 
Illinois such as Boeing, Baxter, Google, Hewlett Packard, IBM 
and more. I am especially proud as a graduate of Northwestern 
with my degree in mechanical engineering.
    Today's hearing focuses on private sector and university 
STEM engagement programs. I look forward to hearing from these 
accomplished individuals who have dedicated their careers to 
improving STEM engagement and learning in their communities and 
across the Nation. I also look forward to hearing from the 
students who have participated in the FIRST Robotics 
competition.
    But I also want to say a few words about the Federal role 
in this partnership. The federal government invests $3 billion 
in STEM education across 14 agencies. While that is a large 
dollar figure, it is important to put that number in 
perspective. Less than half of that is focused at the K-12 
level. Federal investments in K-12 education overall account 
for only ten percent of total U.S. funding for K-12 education, 
and the Federal share of STEM funding is likely much less than 
ten percent. So the Federal role is limited, but it is also 
unique and necessary.
    The National Science Foundation is the single most 
important source of research, development, and testing of 
innovative new models for STEM education. The federal 
government also has an unrivaled ability to convene 
stakeholders and to leverage private sector investment in STEM 
education. Entrepreneurs like Mr. Kamen and Mr. Partovi did not 
have to start from scratch. They are smart businessmen 
investing in, perfecting, and expanding evidence-based ideas 
and programs. So while the federal government cannot begin to 
solve our STEM education challenges alone, we would be remiss 
to ignore the important role the government does play. I hope 
that this Committee will continue to exercise its oversight 
authority to ensure that we get the most out of our relatively 
small but critical Federal STEM education programs.
    I want to thank Chairman Bucshon again for calling this 
hearing, and the witnesses as well for taking the time today to 
offer their insights and experiences.
    With that, I will yield back.
    [The prepared statement of Mr. Lipinski follows:]

     Prepared Statement of Subcommittee on Research and Technology
                Ranking Minority Member Daniel Lipinski

    Thank you, Chairman Bucshon, and thank you to all of the witnesses 
for being here today. One of the reasons I joined this Committee is 
because of my strong interest in working to improve math and science 
education in this country. I am one of only a dozen members of the 
House and Senate who has an engineering degree. My wife was a math 
major in college and--unlike me--her STEM training led her directly 
into a career as an actuary. From our own family experiences and what I 
have seen over the years, I am very aware of how important it is that 
we do a good job of engaging and educating our students at all levels 
in STEM fields.
    But with the release last month of the latest PISA results, we were 
reminded yet again of the troubling statistics on the state of U.S. 
math and science education. U.S. K-12 students rank in the middle of 
the pack in international comparisons of math and science aptitude. We 
see the problems at all job levels. I constantly hear from 
manufacturers back home that they have a hard time finding employees 
who have even basic math and science skills. In higher education we 
have far too few students pursuing and completing degrees in certain 
STEM fields to meet the needs of domestic industry. For example, less 
than 2.4% of college students graduate with a degree in computer 
science, despite tremendous demand for these skills, and that number 
has dropped over the last decade.
    Our troubles start from the earliest grades and are part of a 
negative feedback cycle that we must break. Students who aren't 
learning the necessary skills by the time they graduate high school are 
much less likely to pursue, and to succeed, in STEM fields in college. 
When we lose an undergraduate student from a STEM field, we lose a 
scientist or engineer who could potentially pursue a career in teaching 
the next generation.
    We know these to be complex problems with no easy or one-size-fits-
all solution. That's why partnerships between the private sector, 
Federal and state governments, colleges, universities, local school 
districts, national labs, science museums, zoos and aquaria, and all 
types of nonprofits are more important than ever. The U.S. still has 
some of the best K-12 schools, colleges, and universities in the world, 
and our top students at all levels compete easily with the top students 
from around the world. That's why I'm glad we have witnesses here today 
that can speak to the types of STEM partnerships needed to engage young 
minds at an early age and keep them engaged in STEM fields. In 
particular, Northwestern University's Office of STEM Education 
Partnerships connects K-12 teachers and students to the world-class 
STEM resources of Northwestern University and corporations in the state 
of Illinois such as Boeing, Baxter, Google, Hewlett Packard, IBM, and 
more.
    Today's hearing focuses on private sector and university STEM 
engagement programs. I look forward to hearing from these accomplished 
individuals who have dedicated their careers to improving STEM 
engagement and learning in their communities and across the nation. I 
also look forward to hearing from the students who have participated in 
the FIRST Robotics competition.
    But I also want to say a few words about the federal role in this 
partnership. The Federal Government invests $3 billion in STEM 
education across 14 agencies. While that is a large dollar figure, it's 
important to put that number in perspective. Less than half of that is 
focused at the K-12 level. Federal investments in K-12 education 
overall account for only 10 percent of total U.S. funding for K-12 
education, and the federal share of STEM funding is likely much less 
than 10 percent. So the federal role is limited, but it is also unique 
and necessary. The National Science Foundation is the single most 
important source for research, development, and testing of innovative 
new models for STEM education.
    The federal government also has an unrivaled ability to convene 
stakeholders and to leverage private sector investment in STEM 
education. Entrepreneurs like Mr. Kamen and Mr. Partovi did not have to 
start from scratch. They are smart businessmen investing in, 
perfecting, and expanding evidence-based ideas and programs. So while 
the federal government cannot begin to solve our STEM education 
challenges alone, we would be remiss to ignore the important role the 
government does play. I hope that this Committee will continue to 
exercise its oversight authority to ensure that we get the most out of 
our relatively small, but critical federal STEM education programs.
    I want to thank Chairman Bucshon again for calling this hearing, 
and the witnesses as well for taking the time to offer their insights 
and experiences with us today. And with that, I yield back.

    Chairman Bucshon. Thank you, Mr. Lipinski.
    I now recognize the Chairman of the full Committee, the 
gentleman from Texas, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    First of all, let me comment on the atmosphere I ran into 
when I entered the room before the hearing officially began and 
the gavel came down, because it was an atmosphere unlike almost 
any other hearing I have walked into. The atmosphere was almost 
festive, and people were excited because they are interested in 
this subject, and I think we are excited also about what we are 
going to hear from our witnesses today in the case of both 
panels. This is a subject that fascinates us, I think, and we 
all realize it is absolutely a key to the future prosperity of 
this country. So it was fun to walk into that kind of an 
environment.
    Mr. Chairman, to achieve the innovations of tomorrow, we 
must better educate American students today. The federal 
government spends nearly $3 billion each year on science, 
technology, engineering and math education activities. These 
programs are found primarily at the National Science Foundation 
and the Department of Education.
    Today we will hear from leaders and experts from private 
sector organizations that focus on engaging students in STEM 
education. Two of them were established for this express 
purpose. We need to learn what is taking place outside of the 
federal government so we can be sure we are not spending 
taxpayer dollars on duplicative programs, and we need to more 
effectively use taxpayers' dollars to gain the most benefit for 
our students and our country. It is critical to understand what 
is working and how we can build on that success.
    The leaders of these organizations and the student 
participants here today are in a good position to provide us 
with useful information.
    A well-educated and trained STEM workforce will promote our 
future economic prosperity. But we must persuade our Nation's 
youth to study science and engineering so they will want to 
pursue these careers. Great strides are being made in STEM 
education by the organizations represented here today, FIRST 
and Code.org, and by institutions like the Rose-Hulman 
Institute of Technology and Northwestern University.
    Unfortunately, American students still lag behind students 
of other nations when it comes to STEM education. American 
students, according to one poll, rank 26th in math and 21st in 
science. This is not the record of a country that expects to 
remain a world leader.
    We need to ensure that young adults have the scientific and 
mathematic skills to strive and thrive in a technology-based 
economy. You can't have innovation without advances in 
technology, and the STEM students of today will lead us to the 
cutting-edge technologies of tomorrow.
    The students participating in our second panel are proof 
that a STEM education can prepare our next generation of 
scientists, engineers, entrepreneurs and leaders.
    Mr. Chairman, thank you, and I look forward to hearing from 
our witnesses today.
    [The prepared statement of Mr. Smith follows:]

      Prepared Statement of Full Committee Chairman Lamar S. Smith

    To achieve the innovations of tomorrow, we must better educate 
American students today. The federal government spends nearly $3 
billion dollars each year on science, technology, engineering and math 
(STEM) education activities. These programs are found primarily at the 
National Science Foundation and the Department of Education.
    Today we will hear from leaders and experts from private sector 
organizations that focus on engaging students in STEM education. Two of 
them were established for this express purpose.
    We need to learn what is taking place outside of the federal 
government so we can be sure we are not spending taxpayer dollars on 
duplicative programs. And we need to more effectively use taxpayers' 
dollars to gain the most benefit for our students and our country.
    It is critical to understand what is working and how we can build 
on that success. The leaders of these organizations and the student 
participants here today are in a good position to provide us with 
useful information.
    A well-educated and trained STEM workforce will promote our future 
economic prosperity. But we must persuade our nation's youth to study 
science and engineering so they will want to pursue these careers.
    Great strides are being made in STEM education by the organizations 
represented here today, FIRST and Code.org, and by institutions like 
the Rose-Hulman Institute of Technology and Northwestern University. 
Unfortunately, American students still lag behind students of other 
nations when it comes to STEM education. American students according to 
one poll rank 26th in math and 21st in science. This is not the record 
of a country that expects to remain a world leader.
    We need to ensure that young adults have the scientific and 
mathematic skills to strive and thrive in a technology-based economy. 
You can't have innovation without advances in technology. And the STEM 
students of today will lead us to the cutting-edge technologies of 
tomorrow.
    The students participating in our second panel are proof that a 
STEM education can prepare our next generation of scientists, 
engineers, entrepreneurs and leaders. I look forward to hearing about 
the STEM programs and activities of our witnesses.

    Chairman Bucshon. Thank you, Chairman.
    I now recognize the Ranking Member, the gentlelady from 
Texas, Ms. Johnson, for her opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing.
    I would like to start by asking all of the students that 
are present to stand. I want to congratulate you, and I am 
truly impressed by your leadership and your accomplishments. 
You should be very proud because you will be our leaders of 
tomorrow. Thank you for standing.
    Unfortunately, too many students across the country do not 
have the opportunities to participate in inspiring STEM 
activities or to receive a high-quality STEM education. Once 
again, our students were just in the middle of the pack in the 
latest international test of science and math proficiency. I 
had a long visit just last night with the minister of education 
from Japan, and we talked about that a lot.
    We can no longer depend on our top few percent to maintain 
a strong and vibrant economy with good, high-paying jobs in our 
own communities. Our competitive edge will be lost if we do not 
vastly improve STEM education in this country for all of our 
students.
    We know that this is a complex challenge that no entity can 
solve alone. There is no silver bullet. And there is a role for 
all the key stakeholders, public and private. Today we hear 
from two entrepreneurs and two education leaders in STEM 
education. I congratulate them for their important work and 
thank them for taking the time to provide their insight to this 
Committee today.
    But I also want to emphasize the important and unique role 
of the federal government in improving STEM education. Many 
Federal STEM programs, including those supported by the 
National Science Foundation and the Department of Education, 
are making a difference in universities, community colleges, 
and K-12 across the nation. There are also many valuable 
programs being funded through other Federal science agencies, 
such as NASA, NOAA and the Department of Energy. These agencies 
are filled with thousands of scientists and engineers who can 
make a difference in their own communities for students across 
the country. As working STEM professionals, the real life work 
that they do using STEM is so inspiring to our students. Take 
an astronaut to the classroom. You will see what I am talking 
about.
    But the Federal role is more than that. The National 
Science Foundation is the premier STEM education research 
organization in the country. For decades, NSF has been a leader 
in developing the most effective and inspiring STEM curricula 
and programs in and out of the classroom. When the private 
sector invests in STEM education, they are looking for proven 
programs with proven outcomes. The National Science Foundation 
more than any other organization is responsible for building 
that evidence base. I hope this Committee will continue to 
exercise its responsibility to conduct oversight of NSF's and 
other agencies' STEM education programs.
    Today, though, I look forward to hearing from the experts 
on the first panel about their programs and how we measure that 
impact. I also look forward to hearing from the students about 
what initially sparked their interest in STEM, and what role 
their teachers, parents and other mentors have played in 
helping them to reach their goals.
    I thank all of you for being here today to share this 
experience. I want to see the United States move from 26 to 
one. When I came here over 20 years ago, we were number 18. We 
are going backwards. We are challenged. We have got to meet 
that challenge. Thank you.
    [The prepared statement of Ms. Johnson follows:]

          Prepared Statement of Full Committee Ranking Member
                         Eddie Bernice Johnson

    Good morning and thank you Chairman Bucshon for holding this 
hearing. I want to start by congratulating the students who are here 
today and welcoming you to the Committee. I am truly impressed by your 
leadership and your accomplishments, and you should all be very proud.
    Unfortunately, too many students across the country do not have 
opportunities to participate in inspiring STEM activities or to receive 
a high quality STEM education. Once again, our students were just in 
the middle of the pack in the latest international test of science and 
math proficiency. We can no longer depend on our top few percent to 
maintain a strong and vibrant economy with good, high-paying jobs in 
our own communities. Our competitive edge will be lost if we do not 
vastly improve STEM education in this country for all of our students.
    We know that this is a complex challenge that no one entity can 
solve alone. There is no silver bullet. And, there is a role for all 
the key stakeholders, public and private. Today we hear from two 
entrepreneurs and two education leaders in STEM education. I 
congratulate them for their important work and thank them for taking 
the time to provide their insight to the Committee today.
    But I also want to emphasize the important and unique role of the 
federal government in improving STEM education. Many Federal STEM 
programs, including those supported by the National Science Foundation 
and the Department of Education, are making a difference in 
universities, community colleges, and K-12 schools across the nation. 
There are also many valuable programs being funded through other 
federal science agencies, such as NASA, NOAA, and the Department of 
Energy. These agencies are filled with thousands of scientists and 
engineers who can make a difference in their own communities and for 
students across the country. As working STEM professionals, the real 
life work that they do using STEM is so inspiring to our children.
    But the federal role is more than that. The National Science 
Foundation is the premier STEM education research organization in the 
country. For decades, NSF has been a leader in developing the most 
effective and inspiring STEM curricula and programs in and out of the 
classroom. When the private sector invests in STEM education, they are 
looking for proven programs with proven outcomes. NSF, more than any 
other organization, is responsible for building that evidence base. I 
hope this Committee will continue to exercise its responsibility to 
conduct oversight of NSF's and other agencies' STEM education programs.
    Today though, I look forward to hearing from the experts on the 
first panel about their programs and how they measure impact. I also 
look forward to hearing from the students about what initially sparked 
their interest in STEM, and what role their teachers, parents, and 
other mentors have played in helping them to reach their goals. Thank 
you all for being here today to share your experiences with us.

    Chairman Bucshon. Thank you.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I am going to introduce our first panel of 
witnesses. Our first witness today is Mr. Dean Kamen. Mr. Kamen 
is an inventor and entrepreneur and the founder of For 
Inspiration and Recognition of Science and Technology, 
otherwise known as FIRST, and founder and President of DEKA 
Research and Development Corporation.
    Our second witness is Mr. Hadi Partovi. Mr. Partovi is an 
entrepreneur and an investor who was on the founding teams of 
Tellme and iLike, and worked on Facebook, Dropbox and others as 
an investor and startup advisor. He co-founded the education 
nonprofit Code.org. Mr. Partovi is a graduate of Harvard.
    Our third witness is Dr. Kemi Jona. Dr. Jona is a Professor 
of Learning Sciences and Computer Science at Northwestern 
University. He is the founder and Director of Northwestern's 
Office of STEM Education Partnerships. Dr. Jona holds a Ph.D. 
from Northwestern and a B.S. in computer science and psychology 
from the University of Wisconsin-Madison.
    Our fourth witness, from my district, is Dr. Phillip 
Cornwell, Vice President for Academic Affairs and Professor of 
Mechanical Engineering at Rose-Hulman Institute of Technology 
in Terre Haute. Dr. Cornwell received his B.S. degree in 
mechanical engineering from Texas Tech University and his M.A. 
and Ph.D. from Princeton.
    Our witnesses should know spoken testimony is limited to 
five minutes. There will be some latitude given.
    And I now recognize Mr. Kamen for five minutes to present 
his testimony.

             TESTIMONY OF MR. DEAN KAMEN, FOUNDER,

                FOR INSPIRATION AND RECOGNITION

               OF SCIENCE AND TECHNOLOGY (FIRST),

                     FOUNDER AND PRESIDENT,

                        DEKA RESEARCH &

                    DEVELOPMENT CORPORATION

    [video]

    Mr. Kamen. You have to do what the voice of God tells you.
    Firstly, thank you, Chairman Smith, thank you, Chairman 
Bucshon, thank you, Ranking Member Lipinski, and thank you, 
Ranking Member Johnson. Each one of you has made comments that 
make this seem like it is going to be real easy. I think 
everybody understands the problem, everybody understands the 
importance of reinvigorating the entire generation of American 
kids to be leaders in the world in science and tech.
    Maybe this is unusual for you. I don't know much about 
Washington but it seems like everybody comes here asking for 
something. I can tell you, I as DEKA Research am not asking you 
for anything for me or my company, and I as the founder of 
FIRST am not asking you for anything for FIRST. FIRST has 3,500 
corporate sponsors now. FIRST has 160 universities that are 
desperate to help get these kids into their system. They gave 
us last year over $18 million in scholarships to give out at 
our championship. We will have more this year.
    I am not asking you for them, but there are a few tens of 
millions of kids in this country that don't have access to 
FIRST. They are not capable of leveraging what these 3,500 
corporate sponsors that are donating 120,000 world-class 
scientists and engineers. You can't buy these people. You 
couldn't afford them, and you can't buy passion. They do it 
because they care, because they are serious adults and 
professionals and parents. They know that we have got to 
invigorate kids to do something like this, so I am here to ask 
you to figure out how to get FIRST available to all these 
schools, and by doing that, you will be able to leverage what 
FIRST has put together over the last 25 years, and I think it 
will be a winner for everybody.
    My little red light is on, so I guess I have to shut up.
    [The prepared statement of Mr. Kamen follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Thank you very much.
    I now recognize Mr. Partovi for his testimony.

                 TESTIMONY OF MR. HADI PARTOVI,

                  CO-FOUNDER AND CEO, CODE.ORG

    Mr. Partovi. Thank you very much. My name is Hadi Partovi.
    I learned to program early when I was young. I studied 
computer science at Harvard, and this set up my career with an 
early job at Microsoft.
    Sorry. I think you already heard me. I started my early 
career as a computer scientist. I learned to program young and 
I studied computer science at Harvard, and this set up my 
career with a great job at Microsoft. I co-founded multiple 
companies and was an early investor in some of our country's 
most successful startups.
    Starting from nothing, I am now living the American dream, 
and this is because of my foundation in computer science. 
Computer science fuels the American dream, and I am here not to 
testify on behalf of the organization I founded, Code.org, but 
I guess in support of the field, in support of computer 
science, and the reason is because 90 percent of our schools 
don't teach computer science.
    I want to play a short video from the supporters of 
Code.org to give you, in their words, why this field is 
important.
    [Video shown.]
    So my organization's goal is to bring computers science to 
all the schools of this country, and people often confuse what 
is computer science. When I went to school, every student and 
every school would teach how to dissect a frog or how 
electricity works, and I believe in this 21st century, it is 
equally important to learn how to dissect an app or how the 
Internet works, and this is fundamental not only to millions of 
careers in technology but even for students who don't ever want 
to pursue a career in technology. For people who want to become 
doctors or lawyers or accountants or elected officials, it is 
important to understand how the world around us works.
    Speaking about the careers in computer science, the Bureau 
of Labor Statistics projects 1.4 million jobs over ten years 
being created in this field, and the National Science 
Foundation projects only 400,000 graduates going into the 
field. That adds up to a million jobs in the gap between jobs 
and students, which adds up to $500 billion in salaries.
    What is more, these jobs are in every state and every 
industry. This isn't about Google or Microsoft having trouble 
hiring skilled laborers. Only one-third of computing jobs are 
in technology. The rest are in banking, manufacturing, 
government, retail, et cetera.
    If there is one thing I want you to remember from today, it 
is the charts I am showing up here.
    [Chart]
    The chart on the left shows you the amount of time high 
school students spend in all of STEM and the small sliver that 
is computer science. The chart on the right shows the jobs in 
all of STEM and the very giant segment that is computer 
science, and you wonder, why is there a mismatch there? Because 
90 percent of our schools do not even teach this field. And of 
the tiny sliver that do study computer science, only 15 percent 
are girls, and less than eight percent are Hispanic Americans 
and African Americans. It is a huge problem for our country, 
and our policies don't support it. In 33 of 50 states, computer 
science doesn't even count towards high school STEM 
requirements, and of the billions of dollars of federal money 
that you all mentioned being spent on STEM, almost none of it 
goes to computer science because of regulatory barriers we want 
to have you guys help remove from the system.
    People often ask me, can our students learn this, can our 
teachers teach it, why are we not focusing just on basic math, 
which we are already failing at, and we proved last month that 
our students can learn it. We ran a campaign called the Hour of 
Code. It was kicked off by the President, the House Majority 
Leader, Senators and Newt Gingrich in partnership with 100 
companies--Google, Microsoft, Apple--the government, the 
College Board and many others. We had 20 million students 
participate with 17 million in the United States. One out of 
every four students in U.S. schools learned an hour of code and 
half of them were girls. It is an amazing accomplishment. To 
put this into context, the College Board AP Computer Science 
Exam has 32,000 students participating; the College Board AP 
Calculus Exam, 300,000; all of U.S. FIRST clubs, 350,000 
students; the math SAT, 1.7 million. The Hour of Code had 17 
million participants, and it goes to show that our kids can 
learn this.
    So we have proven that America wants this, our students 
want it, our parents want it, and I am not talking about Code, 
I am talking about computer science. The question for you is, 
how do you answer the parent who asks, why isn't this 
foundational field being taught in my children's schools and 
how can the U.S. government remove the barriers that get in the 
way right now.
    I have a very short video to show, 30 seconds of a girl who 
came back, one of the 17 million students in America who came 
back to her mom or dad after learning one hour of code.
    [Video shown.]
    Every kid in America can learn computer science. Ninety 
percent of our schools don't teach it. We can help fix this.
    Thank you very much.
    [The prepared statement of Mr. Partovi follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Bucshon. Thank you.
    I now recognize Dr. Jona for five minutes for his 
testimony.

             TESTIMONY OF DR. KEMI JONA, DIRECTOR,

             OFFICE OF STEM EDUCATION PARTNERSHIPS,

             RESEARCH PROFESSOR, LEARNING SCIENCES

                     AND COMPUTER SCIENCES,

                    NORTHWESTERN UNIVERSITY

    Dr. Jona. Well, good morning, Members of the Committee. I 
would like to thank Ranking Members Lipinski and Johnson and 
Chairmen Bucshon and Smith for inviting me to testify today.
    The mission of my office is to connect K-12 teachers and 
students to the world-class STEM resources of Northwestern 
University and beyond. To date, we work with a growing network 
of over 200 Chicago-area schools, over 600 teachers who reach 
approximately 48,000 students, and since I am sitting next to 
Hadi, I am proud to announce that next week Chicago Public 
Schools is launching Code.org's computer science curriculum for 
all of its high schools, so we are really pleased to be part of 
that.
    My testimony today focuses on three models that we have 
found successful in engaging industry partners in STEM 
initiatives. All three examples illustrate the importance of 
building in both scalability and sustainability, and all three 
have leveraged private sector support to expand and sustain 
federal investments. We are fortunate to work with many 
industry partners including Boeing, Hewlett-Packard, IBM, 
Motorola and Siemens.
    The first example that I would like to share today is our 
work with Baxter International, a global health care company 
located outside of Chicago. Their generous support has created 
a Biotechnology Center of Excellence at Lindblom Math and 
Science Academy, which is a grade 7-12 public school located on 
the southwest side of Chicago that serves a predominantly 
minority and low-income student population. This Center of 
Excellence provides teachers with professional development, lab 
equipment and other resources focused on the important field of 
biotechnology. These are provided not just to Lindblom teachers 
but to teachers from across the district. In the last few 
years, we have trained 168 teachers from 115 different schools 
reaching over 20,000 students. This Center of Excellence model 
is building self-sustaining capacity in the Chicago Public 
Schools to improve the teaching of biotechnology across the 
entire district.
    One of the curriculum offerings available to teachers is an 
innovative set of high school biology labs we developed in 
partnership with my colleague, Dr. Teresa Woodruff in our 
medical school. These labs are based on Dr. Woodruff's NIH-
funded research in oncofertility. The Center of Excellence 
model demonstrates the power of partnerships between the 
private sector, universities and public schools. The federal 
NIH dollars invested continue to pay dividends as hundreds of 
teachers and thousands of students each year benefit through 
the ongoing support provided by Baxter.
    A second example I would like to share with you today is 
called Illinois Pathways. Illinois Pathways is a State of 
Illinois-led STEM education initiative that has created new 
public-private partnerships known as STEM learning exchanges. 
Each of the nine exchanges coordinates investments, resources 
and planning in STEM industry sectors like information 
technology, manufacturing, energy and research and development. 
This effort launched with $2.3 million in Federal Race to the 
Top money and which was then leveraged to $8.5 million in 
public and private matching funds. The Illinois Business 
Roundtable, an organization made up of CEOs and other industry 
leaders, has been a key driver of this initiative in our state.
    Northwestern is a proud member of the Research and 
Development Learning Exchange. One of our signature projects is 
a mentor matching engine. This online resource pairs students 
with private industry mentors to conduct independent research 
in STEM fields. You can think of it as sort of like a Match.com 
for student researchers. By conducting mentors and students 
online, this Web site helps to level the playing field by 
facilitating access to mentors for students all across the 
State, especially in our rural and urban areas. The STEM 
exchanges have been instrumental in organizing previously 
uncoordinated private sector, university and school 
participation in STEM, and they serve as statewide distribution 
platforms for STEM education resources.
    The third and final example I would like to share is our 
out-of-school program called FUSE. It is a project funded by 
the MacArthur Foundation and the National Science Foundation as 
well as companies including Motorola Mobility, Siemens and IBM. 
The goal of FUSE is to engage youth, especially those from 
underrepresented groups, in STEAM topics--and we add the arts 
and design to STEM--while fostering the development of 
important 21st century skills like creative problem solving, 
persistence and grit. Challenges are the core activity of FUSE 
studies, and I would like to play a short clip now that 
illustrates some of the fun and engaging challenges that we 
have developed with our private sector partners.
    [Video shown.]
    So FUSE currently has 20 challenge sequences in areas such 
as robotics, electronics, solar energy, jewelry design, and 3D 
printing. Some of the ones that are on the video exemplify 
this. The jewelry designer challenge is in particular very 
popular with girls, and it uses all of the same design and 3D 
printing skills that you need for advanced manufacturing and 
other skills. So FUSE is yet another example of a platform that 
can be scaled up to engage large numbers of youth in STEM or 
STEAM fields. For our industry partners, the modular challenge 
format that you see here and a focus on out-of-school-time 
learning is often more appealing than in-school curriculum 
development that can be very slow and bureaucratic. FUSE 
provides a dissemination network as new challenges are offered 
to youth at our growing network of 17 sites around the Chicago 
metro area.
    So to wrap up, my key message today is that what has been 
missing from the recent discussions of federal STEM policy is a 
recognition of the importance of creating robust dissemination 
mechanisms, mechanisms that support the scalability and 
sustainability of high-quality STEM education programs 
developed with either federal or private sector support. To 
really engage students with high-quality STEM education, we 
need the leadership and support of both the federal government 
and the private sector to create distribution platforms like 
the iTunes App Store or the Android Play Store for our 
smartphones to create the similar kinds of distribution 
platforms for STEM education resources like the examples I 
highlighted today.
    Thank you.
    [The prepared statement of Dr. Jona follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Bucshon. Thank you very much.
    I now recognize Dr. Cornwell for five minutes for his 
testimony.

               TESTIMONY OF DR. PHILLIP CORNWELL,

              VICE PRESIDENT FOR ACADEMIC AFFAIRS,

              PROFESSOR OF MECHANICAL ENGINEERING,

              ROSE-HULMAN INSTITUTE OF TECHNOLOGY

    Dr. Cornwell. Chairman Bucshon, Chairman Smith, Ranking 
Members Lipinski and Johnson, thank you so much for inviting me 
to be here today.
    As you were told, my name is Phil Cornwell. I am Vice 
President for Academic Affairs and a Professor of Mechanical 
Engineering at Rose-Hulman Institute of Technology. Rose-Hulman 
is a university focused entirely on math, science and 
engineering education. For the last 15 years, U.S. News and 
World Reports has ranked us as number one in our category, 
which is basically engineering programs at schools that don't 
offer a Ph.D. We have about 2,200 students, which makes us a 
small school but a midsized college of engineering. Our 
placement rate last year was about 99 percent and is always 99 
percent. Our average starting salary is about $67,000.
    The mission of Rose-Hulman is to provide our students with 
the world's best undergraduate science, engineering and 
mathematics education in an environment of individual attention 
and support. What that means is that we hire faculty members 
who have a passion for their technical field but also a passion 
for students in undergraduate education. Our goal is to 
graduate technically outstanding, well-rounded, liberally 
educated STEM professionals; and even though our primary focus 
is undergraduates, we do have a number of outreach activities I 
wanted to share with you.
    One of our most successful is called Operation Catapult, 
which is a three-week summer program. Students come to campus, 
they live on campus, and they participate in lots of 
activities; but most important, they work on a technical 
project that has a faculty member as the mentor. About 30 
percent of the students that attend Catapult end up coming to 
Rose-Hulman. The other 70 percent study STEM at other 
universities. So, it is a great way of solidifying their 
interest in STEM.
    We also have a program called Homework Hotline, which has 
been around since 1991. That is a math and science tutoring 
program for students in grades 6 through 12. If a student has 
problems with math and science homework and they can't get help 
at home, they can call Rose-Hulman where Rose-Hulman students 
are available as tutors to help the students not just get the 
answer, but understand the material.
    We also do a lot with industry, and I will just mention one 
unique program that is called Rose-Hulman Ventures. Rose-Hulman 
Ventures is basically an engineering consulting business that 
operates on the Rose-Hulman campus. Students that work with 
Rose-Hulman Ventures are student interns that work under the 
supervision of a professional project manager with client 
companies on projects that are important to the company. It 
could be working on a coding project, it could be developing a 
prototype, it could be developing a product. It is just 
something that is important to the client, and the clients 
typically pay time and materials. Companies range from small 
startups like Fast BioMedical or NICO to large companies like 
Alcoa, Cummins or Dow Agro.
    One of the reasons for this Committee hearing, I believe, 
is the recognition that we need more STEM professionals in the 
United States; and for me, there are two key things that we 
need to accomplish that. One is to increase the pipeline and 
increase the number of students interested in STEM, which is 
largely what we are talking about today; but, secondly, we also 
need to, once those students enter college, graduate more of 
them and help them be successful. As far as the pipeline, I 
think programs like FIRST Robotics, curriculum like Project 
Lead the Way, and many other programs do a fantastic job of 
energizing students and helping students see engineering or 
computer science as a possible career option, which I think is 
absolutely critical. But I also think it is equally important 
to strengthen our math, science and, I would add, computer 
science curriculum in the high schools, so when they get to 
college, they are prepared to be successful in the very 
rigorous curricula that are required for all of those majors.
    As far as retention and graduation rates, if we forget the 
pipeline issue and look at the students that currently enter 
college with an interest in studying engineering, which is my 
area of expertise--less than 50 percent graduate. At Rose-
Hulman, it is 80 percent. It varies widely from school to 
school. But if we could increase that number by just ten 
percent, if I did my calculations correctly, that means within 
six years we could graduate 100,000 additional engineers 
without doing anything to the pipeline. We are just helping 
more of our students graduate.
    How do we do that? There is actually a lot of research on 
the topic. Some things that I think are important include an 
early connection of students to the discipline; and, again, 
FIRST Robotics does a great job of that. Most freshman design 
programs do that. It is very frustrating to have a really smart 
student drop out of engineering and they say ``well, it is 
because I don't like engineering,'' but as a freshman, they 
have never had any engineering. It just drives you crazy.
    Secondly, I do think having faculty members whose first 
priority is teaching and working with students and helping them 
be successful is important in terms of persistence and 
graduation rate. I can share some stories about that if you are 
interested. I also think undergraduate research and internships 
are important for retention and graduation rates.
    So what can the federal government do? Certainly, continue 
to support undergraduate research--I think that is critical. 
Perhaps incentivize companies to offer early internships. Most 
companies offer internships for juniors and possibly sophomores 
because they consider that a critical part of their 
recruitment, but it is much harder for students to get a 
meaningful internship as freshmen. You could also incentivize 
students who study STEM through perhaps lower interest rates 
for student loans or perhaps loan forgiveness. There are lots 
of ways to possibly incentivize this.
    I tell prospective students at Rose-Hulman all the time 
that a STEM education is great no matter what they want to do. 
If they want to go to industry, if they want to go to graduate 
school, if they want to go to medical school or business 
school, if they want to become a politician, engineering STEM 
is great; and I applaud this Committee for taking the 
leadership role in promoting STEM research as well as STEM 
education.
    So again, thank you so much for giving me the opportunity 
to testify.
    [The prepared statement of Dr. Cornwell follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. You are welcome, and I would like to 
thank all the witnesses for their testimony, and I will remind 
the Members of the Committee that the rules limit questioning 
to five minutes. The Chair at this point will open the round of 
questions, so I recognize myself for five minutes.
    As a cosponsor of the Computer Science Education Act, I 
share many of the concerns that you do, and I am quite pleased 
that my home State of Indiana is one that allows a rigorous 
computer science course to satisfy core high school graduation 
credit, particularly since according to the Conference Board, 
there are 4,864 open computing jobs in Indiana right now. That 
is changing by the minute, I am assuming.
    According to your analytics, 264,000 Indiana students did 
the Hour of Code in December 2013. Mr. Partovi, what do you see 
as the next steps for those students if they want to pursue 
studying computer science?
    Mr. Partovi. Thank you very much for that question. We were 
astonished to find 17 million students in this country do the 
Hour of Code, and we were actually prepared to offer more than 
one hour in terms of instruction. The one hour was enough to 
demystify the field for teachers, parents, students to all 
realize that computer science is something that anybody can 
learn, but we also had a follow-on curriculum that any student 
could learn online or any teacher could teach online. We are 
already within one month at the point that over 10,000 
classrooms are teaching a full computer science class to almost 
500,000 students.
    To put this into context, in October-- at any point in 
history there has been at most 10,000 classrooms in the country 
teaching computer science. In one month, we have doubled it. In 
terms of the number of students studying it, we have almost 
tripled or quadrupled it within one month because of the 
follow-on from the Hour of Code. It shows this is an incredibly 
popular topic with students, parents and teachers, and our only 
ask, and not for Code.org but for the field of computer science 
is like you have sponsored in the CSEA to remove the federal 
government barriers that prevent this field from spreading to 
our public schools. Thank you very much.
    Chairman Bucshon. Thank you.
    Mr. Kamen, what differentiates your program and their 
offerings from other private sector STEM initiatives because 
you have been very successful, and why do you think it has been 
successful and what principles and techniques do you use in 
your programs that would you suggest to apply to the Federal 
STEM education programs?
    Mr. Kamen. I think the primary reason we have been 
successful, we are different, is our premise right up front 
was, 25 years ago, the world of parents and politicians and 
government leaders and corporate leaders was, we have an 
education crisis. My mother is a teacher, and she reminds me of 
that every day. We have a lot of great teachers. I am an 
inventor. What do inventors do? We look at the same problems 
everybody else looks at and see them differently. And I said, 
you know, my mom is probably right, she always is. We don't 
have an education crisis; we have a culture crisis. You get the 
best of what you celebrate in this country, and she pointed 
out, it is not what we don't have enough of--dedicated 
teachers, surgeons that are willing to commit themselves to 
public service.
    America is built on people that get together and solve a 
problem. Our problem is, we have such a passion in our culture 
because we have become rich, that we can spend time on leisure, 
and we have made superheroes from two places, Hollywood and 
sports, and particularly for women and minorities, they are 
sucked into spending their time until they are 18 or 19 
developing skill sets that aren't likely to lead to great jobs. 
So I said let us get those industries that need these people, 
let us get these world-class tech companies together, let us 
them create superheroes, let us use the model that works, 
sports and entertainment, and let us let the private sector 
solve the cultural problem. You get the best of what you 
celebrate. Let us start celebrating science and technology.
    Chairman Smith said it was a festive atmosphere in here. I 
would encourage everybody here to see, because you can't 
believe it when I say it. We started with one event at the end 
of our season in 1991 in a high school gym in Manchester, New 
Hampshire. We had 23 teams. They came to the one event and it 
was over. With 55 percent compound annual growth for 25 years, 
now we have 29,000 schools around the world, and our March 
madness starts the first weekend in March. We have more than 60 
cities around the United States holding spectacularly large 
events throughout March. There is one near every one of you. 
Every one of you has a school in your district that is involved 
with FIRST. Since we get the best of what we celebrate, it 
wouldn't be hard to invite you to the Final Four or the Super 
Bowl. You would go. You would find the time.
    I would ask two things. You each need to go to one of the 
events in your state and support these kids. First of all, it 
is a lot of fun. Bring your own kids and grandkids. Second of 
all, you will see what happens when kids develop self-
confidence and become aware that they can do the kinds of 
things that will lead to great careers, and I will also invite 
you to our championship on April 25th and 26th under the Arch 
in St. Louis. We will fill a 76,000-seat arena.
    We succeed because we have got industry behind us. They in 
their own self-interest want these kids to become world-class 
scientists and engineers and inventors. That is what they need. 
That is what this country needs. We have succeeded because it 
is the private sector. I was told 25 years ago you will never 
pull this off because you are going to run out of giant 
companies that can support all the schools, and I thought that 
was my biggest problem. These companies just keep delivering. 
They are mentors. They are scientists. They are engineers. The 
staggering thing to me is, the school side. All they need to do 
is give that math teacher or science teacher the same stipend 
to be the coach of the team as you give the football coach for 
that extra effort after school, and believe it or not, the 
schools have 100-year history of figuring out how to fund those 
other programs. That relatively small commitment, the 
appropriate public side commitment to make sure particularly 
the underserved schools can take advantage of FIRST is what you 
guys need to do, and then we will be in every school in this 
country.
    Chairman Bucshon. Thank you very much.
    I now recognize the Ranking Member, Mr. Lipinski, five 
minutes.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank all 
the witnesses for their testimony. It is exciting to hear a lot 
of these things that are going on. I know that more needs to be 
done.
    I want to ask Dr. Jona a little bit about what you have 
done at Northwestern. It is very impressive what you have done 
from what you have shown us here, what you have in your written 
testimony. I want to ask, because we always face, especially 
with this issue, we have people come and talk about great 
things that they are doing and it is always, okay, how do we 
expand this, how do we replicate it, especially what you have 
done at Northwestern in the Chicago area, is how do we 
replicate it. So what were some of the challenges that you 
faced in establishing and growing the Office of STEM Education 
Partnerships and what lessons can be taken by other 
institutions who want to establish something similar?
    Dr. Jona. Thank you for that question. The work that we do 
with our faculty and would be similarly done at other 
institutions is largely funded by NSF's broader impact 
requirement, and while this is an incredibly helpful 
requirement and stream of funding, there really is never enough 
of those funds to go around. We are sort of living on the 
margins, if you will. And what I guess I would like to see is 
NIH and perhaps other STEM mission agencies adopting similar 
requirements or similar funding streams to broaden out that 
pool. My written testimony includes a number of recommendations 
for strengthening and expanding NSF's broader impact work, but 
I would say that a key--that is a key source for other new 
offices like mine to get up and running and off the ground.
    Mr. Lipinski. Are there any other things the federal 
government can do? Obviously Northwestern is in a unique 
position. It is in a large urban area. It is a private 
university. Are there things that maybe the federal government 
could do to help or any suggestions you would have other 
schools that might be looking at doing this and may not be in 
the position Northwestern is in?
    Dr. Jona. Yeah, I feel very strongly that the federal 
government could play an important role in providing seed 
funding, for example, for offices like mine, especially at 
smaller institutions or rural institutions to help them kind of 
get jump-started and off the ground. Another important role 
would be to support a national network of these offices so that 
we could begin to support each other and share the best 
practices that we have developed over time with these smaller 
and newer offices. In addition, this network could then serve 
as sort of a national distribution network for facilitating the 
broader dissemination of federally funded STEM resources that 
are developed at any of our institutions.
    Mr. Lipinski. Thank you. I have so many other questions 
that I can ask.
    Let me go to this. I know, Mr. Partovi, the Chairman had 
asked some questions, talked to you about what you had done 
with the Hour of Code. I know there are about 830,000 students 
in the State of Illinois who took part in the Hour of Code. 
What you put up there is very stark how many jobs there will be 
and how few students will be coming out of college for those 
jobs. Is this something that is--how do we make that better 
understood? It seems like at least when I was in college, maybe 
because I was an engineer, I was always looking, okay, where 
are the jobs supposed to be in maybe directing, giving us a 
sense of where to go. Why is that not happening? Is it because 
of the lack of background and students just saying I can't--
that is not something I can do or not something I am interested 
in? Why do you think it is that there isn't a response to this 
job demand that we know is out there and will continue to be 
out there?
    Mr. Partovi. Thank you very much. This is a great question. 
In fact, one thing I have trouble getting people to realize is 
that, you know, there is a common thread that there is a crisis 
of not having enough STEM professionals in the country. If you 
look at the actual data, most STEM fields have too many 
graduates, whether--there are more math graduates than math 
jobs, there are actually more engineering graduates than 
engineering jobs, more life sciences graduates than life 
sciences jobs, and then way more computer science jobs than 
computer science graduates, and if you look at student 
decisions, by the time they get to college, many students have 
decided their passion, and if they are in one of the 90 percent 
of schools that doesn't even teach computer science, they never 
have any background to think I could do this. So the way to 
solve the problem isn't just building awareness. They know that 
oh, if I could be the next Mark Zuckerberg, that is an amazing 
future. That already is the new American dream. The problem is, 
they think I can't do it because high school never exposed them 
to it.
    Mr. Lipinski. Okay. I see my time is up, so I thank 
everyone for their testimony.
    Chairman Bucshon. I now recognize Chairman Smith for five 
minutes.
    Chairman Smith. Thank you, Mr. Chairman.
    We have gotten a lot of good advice today that I think we 
ought to take to heart. Dr. Cornwell mentioned the corporate 
component, the need to strengthen our curriculum and increase 
the percentage of majors in engineering and I assume other STEM 
subjects as well. Dr. Jona talked about supporting our STEM 
students outside the classroom. Mr. Partovi mentioned the 
barrier that we face with some regulations, and I want to come 
back to that in a minute, and the fact that a lot of schools 
don't even teach computer science and the big gap between what 
is taught and what is needed in the STEM-type jobs, and Mr. 
Kamen has talked about encouraging STEM students through 
robotics.
    And Mr. Kamen, let me direct my first question to you. You 
mentioned at the very last part of your testimony, part of this 
came from your mother, who is a teacher, the need to change our 
culture and celebrate some of these subjects. Let me ask you to 
expound a little bit on that as to how we might do that in a 
practical way.
    Mr. Kamen. As I said, one of the things that makes America 
great and we all brag about it is, it is the land of 
opportunity, but if you are not searching for the right 
opportunity, you are not going to find it, and we have 
celebrated almost to obsession the kinds of activities, 
particularly for kids that don't have professional parents and 
people around them, so that they not only aren't aware of or 
don't have access to learning computer science but I am afraid 
that many of them, the women and the minorities, if they did 
have access wouldn't do it. They are convinced at a very young 
age it is too difficult, it is too hard, it is not for them. 
They want to go and become good at things for which we all know 
realistically they are no jobs. So we said we are going to 
convince kids through celebrating science and technology all 
kids will realize they can do this, and as I said before, we 
succeeded, and I really encourage you all to go to one of our 
events and celebrate with these kids. We have 89.6 percent of 
the kids that have come through our program either go on to 
college to study some technology or go directly into fields to 
learn technology and get great jobs.
    The frustration to us is industry, everybody is behind it 
but the school systems, as you know, are a little bit--they 
lack the resources.
    Chairman Smith. Right. Let me follow up on that in a 
minute. Just a minute. Thank you, Mr. Kamen.
    Mr. Partovi, I think you mentioned a few minutes ago about 
the regulatory burdens. I checked, and I think I know the 
problem, and that is that in the definition of core academic 
subjects, there is no mention of computer science. Clearly, 
that definition of core academic subjects is out of date. A 
bill has been introduced by a colleague of ours, Susan Brooks, 
to change that definition, and in fact, that bill has been 
cosponsored by our Chairman, by Mr. Lipinski, Ms. Esty and I 
think derek Kilmer as well. I certainly will be adding my name 
but if Members of the Committee want to know what they can do 
about it to, to bring a greater focus on computer science and 
to make sure it is part of the core curriculum, one answer is 
to support that particular piece of legislation. So thank you 
for calling that to our attention.
    Let me ask all the panelists, a couple of you all have 
taught for many years. We all know what we need to teach. What 
should we be doing differently as to how we teach these 
subjects? And maybe start with Dr. Cornwell and work back down 
the panelists.
    Dr. Cornwell. Well, for me, one of the keys to teaching 
engineering and computer science is engagement in the material. 
So one----
    Chairman Smith. And I will have to ask you all, because of 
limited time, maybe 30 seconds----
    Dr. Cornwell. Right. So what I see exciting in terms of 
pedagogy and education is flipped classrooms. If there is a 
passive portion of a class where I am just lecturing and 
students are listening, that is a waste of time, put that 
online and then redesign the in-class portion to be much more 
active, much more engaging, and much more project-based. That 
has worked fantastic in courses like mechatronics and design 
courses; but engaging students in the material is really 
critical, even though you still need that lecture material; use 
effectively--effective use of technology and increased active 
engagement to me is a key.
    Chairman Smith. Thank you, Dr. Cornwell.
    Dr. Jona?
    Dr. Jona. I guess I would take a little bit of issue with 
Mr. Kamen's assertion that one of the big challenges is that 
STEM is too difficult. I actually think that the problem is 
that it is too risky for kids to do in school. If you took his 
exact program and tried to put it in school, kids would be 
failing all the time because the only way to succeed is to try 
and learn from your mistakes, but that is not an environment in 
school where assessment is so predominant now. So kids are more 
worried about their GPA than about taking risks and trying hard 
things and so a lot of them tend to shy away from the STEM 
fields for that very reason.
    Chairman Smith. Okay. Thank you.
    Mr. Partovi?
    Mr. Partovi. I have a really quick answer, which is making 
it more fun, and we actually built tutorials. You saw that 
little girl's reaction. Our tutorials feature Angry Birds, 
lectures by Mark Zuckerberg or Chris Bosh and literally feel 
like a game. The kids don't even know that they are learning. 
They feel like they are playing when they use these tutorials.
    Chairman Smith. Okay. Thank you.
    And Mr. Kamen?
    Mr. Kamen. I entirely agree. You have to make it fun. You 
have to make it rewarding. You have to show them superstars 
that they can aspire to be like because that is what drives 
kids to put passion into things in this country, and we have 
got to get kids passionate about science and technology and 
make them believe it is available, it is accessible, it is fun, 
it is rewarding and it is a great career.
    Mr. Smith. Okay. Great. I might add one other idea that is 
not original. I heard it yesterday from the CEO of a tech 
company but it might address some of the concerns about the 
subjects being either too difficult or not interesting enough 
or whatever, and that is, allow students to basically progress 
at their own pace so they are not keeping up with the class, 
they are not discouraged from taking those subjects, so that 
might be another consideration as well.
    Thank you, Mr. Chairman. Yield back.
    Chairman Bucshon. Thank you.
    I now recognize Mr. Kilmer, five minutes.
    Mr. Kilmer. Thank you, Mr. Chairman, and thank you all for 
being here.
    I think this is a very important conversation. I have got 
24,002 reasons to care about this, 24,000 open computing jobs 
in Washington State right now, and two little Kilmer girls. I 
have got a 4-year-old named Tess and a 7-year-old named Sophie, 
and Sophie's newest passion is the codable and hopscotch apps 
on the iPad, which teach coding concepts, and she totally geeks 
out on it.
    Let me start on the 24,000. I just invite you, and maybe I 
will start with Mr. Partovi and invite others to chime in. Be 
more directive to us. I mean, outside of CSEA, and Dr. Jona, 
you mentioned the potential of trying to have the government 
promote distribution platforms for some of these things. Are 
there other things that Congress ought to do to step up not 
just to fill the 24,000 jobs in my state but to ensure that we 
have a workforce for the next generation?
    Mr. Partovi. Sure, absolutely. You know, I looked at this. 
The core issue in computer science which is driving these jobs 
is the high school pipeline, and the reason the CSEA bill is--
you know, it is a no-brainer. It only removes barriers, doesn't 
increase funding. It does what constitutionally the federal 
government should be doing, which is giving more control to the 
states, but if you want to go beyond that, I wouldn't say to 
increase funding but look at the existing $3 billion in STEM 
funding or the existing $1.5 billion in K-12 STEM funding, how 
much of that is going to computer science? I would say today 
almost none of it because in a high school when they get STEM 
funding, STEM means biology, chemistry, physics, environmental 
sciences and calculus, and I have nothing against those things 
but they don't even think of computer science as a STEM topic. 
We all think of STEM as robotics, engineering, computer 
science, coding. That is not what our schools think, so the 
STEM funding you are providing, billions of it, goes where the 
jobs aren't actually.
    Mr. Kilmer. I would invite others to chime in if there are 
other suggestions for Congress.
    Mr. Kamen. I will give you a suggestion. I know that the 
two sides of Congress seem to be polarized on a lot of issues. 
I can tell you from my day job, I have 500 engineers who work 
on a lot of projects for a lot of big companies, most of which 
heard about our members of FIRST as well. But in my day job, I 
now have 30 openings. We have been hiring as fast as we can. We 
can't find tech people just like the rest of these people. I 
have people here on H-1B visas. It costs me a lot of time and a 
lot of money to acquire these people and to get them in. We are 
happy to pay the money because they are so valuable, but of 
course, I would rather give the jobs to homegrown people.
    We know that you have a bill going through that is going to 
increase the H-1B fees to tech companies. You know, what would 
make that a lot easier for these tech companies to swallow is 
to know that some of that money is being used to solve their 
long-term problem. If you could say whichever said, hey, it is 
not even a new tax, it is not even new money, take that H-1B 
fee money, put some of it aside to solve the problem so that 
down the road we don't have to keep doing it this way, and I 
would suggest that if you could take some of that money and 
make it available to these schools so that they can internally 
leverage all the things you have just heard about, the amount 
of time and money it would take to internally build a robotics 
program to bring in world-class scientists and engineers to be 
in classrooms, you can't do it, you don't need to do it. They 
are there. They are free. Let the schools leverage these 
programs by just giving them the stipend for the coach, the 
ability to pay the fee to get to the event and figure out how 
to focus that money on the schools that need it most and that 
way you are solving multiple problems. I hope you get 
consensus. I know industry would be way more supportive of 
paying higher H-1B visa fees if they thought it is solving 
their problem.
    Mr. Kilmer. Thank you. With the minute I have left, let me 
ask--let me focus on the two, and that is, Mr. Partovi, you 
mentioned the failure to see adequate representation of women 
and minorities in the STEM fields. Again, how do you think the 
federal government is doing in terms of some of its programs to 
broaden diversity in the STEM fields and can you give direction 
whether it be through NSF programs or others to what we ought 
to do to raise our game?
    Mr. Partovi. Sure. First of all, what I showed was not 
about STEM, it was just about computer science, because that is 
my focus. The two issues are slightly different. The female 
participation is a cultural one, girls being--just the culture 
all around them making them think this is not for me, whereas 
the African American and the Hispanic American issue is much 
more just availability. There is equal or even greater interest 
level among African Americans or Hispanic Americans in computer 
science but the schools don't teach it, and that is the bigger 
problem that I would suggest that you guys focus on. The 
cultural issue, I think efforts like FIRST and efforts like 
Code.org will actually change the culture. The fact that we got 
10 million girls learning an hour of code last month, that is 
going to start to have a trickle effect, and we are going to do 
that year after year.
    Chairman Bucshon. Thank you very much. I now recognize Mr. 
Massie, five minutes.
    Mr. Massie. Mr. Kamen, that idea of taking the H-1B visa 
fees and using it solve our problems makes way too much common 
sense for Washington, D.C. I love that idea.
    As a participant when I was in grade school and high school 
of science fairs, I was always frustrated that the science 
fairs wanted a hypothesis, and there was just one iteration of 
the scientific process. So what really encourages me about what 
you have done with the FIRST program is to teach failure, that 
it is okay, in fact, you are going to fail multiple times in an 
hour. Even if you write code, you run the code and it is going 
to fail and you find the bugs but the same thing mechanically, 
so I think that is great that it also teaches that failure is 
okay, and it motivates those classroom topics like 
trigonometry. We want those kids to care about trigonometry. 
Why would you care about it unless you could see where you 
could use it?
    But I want to ask you about something I know you are 
passionate about. You are trying to promote the superstars as 
engineers. I would think the equivalent of an Emmy or Grammy 
would be a patent. You know, kids in your programs I am sure 
would love someday to get a patent, because to use sort of an 
engineering analogy, you are trying to push a string uphill if 
you are trying to encourage these kids and the parents to get 
excited about a degree or an education in STEM unless there is 
something pulling the string, and what is pulling the string 
should be that incentive, that Emmy, that Grammy, that 
professional achievement. But isn't it a little 
counterproductive for Congress as we have recently done to 
advance this narrative of trolls, that if you invent something 
and then you go--and then a big company takes your idea and you 
try and live the American dream and use the justice system and 
get your rights asserted in court that you might be a big hairy 
troll? I would argue maybe we should talk about patent hobbits 
instead of patent trolls. They are a lot more cuddly. But I 
would like to hear your views on Congress's recent decision to 
change the patent system.
    Mr. Kamen. So sadly, that is a big topic and it is hard in 
a few seconds----
    Mr. Massie. You can have the rest of my time.
    Mr. Kamen. I would violently agree with you that A, as an 
incentive and as a prize, as an Emmy, it has got to stay there. 
It has been very valuable. It is what has led the United States 
for the last couple hundred years to be clearly the global 
leader in innovation. It is not a coincidence that you name it, 
the Wright Brothers or Edison or the Google boys are here. It 
is not a coincidence. It is the lifeblood of America is 
innovation and the freedom to do it, and we had a patent system 
that supported it, and by the way, we have students that do 
have patents. It is fantastic. We have middle school students 
that have applied for patents through robotics and we are--we 
work with the Patent Office. We have had their director as a 
key person in our organization over the years. They come to our 
championship.
    But back to the current issue of patents, I think the 
intersection of bad actors, people that are being called 
trolls, they are conflating to the general public the bad 
actors with the incredible importance of the patent system, and 
I think mostly because of misguided understanding. You know, my 
guess is most people in Congress understand certain other kinds 
of intellectual property. Dollar bills are an intellectual 
property. You can't run your car on them. You can't buy--you 
can't eat them. You can buy food or fuel. A deed to your home 
is intellectual property. A credit card is intellectual 
property. We have a society that depends on them. We know that 
there is a lot of credit card fraud in this country but I 
haven't heard Congress say let us stop letting people use 
credit cards. I know that there are counterfeiters out there, 
there are bad actors, and we should go after them and put them 
in jail but I haven't heard anybody say let us close the Mint 
and the Treasury. But because of bad actors that have made, 
frankly, small levels of outrage and inconvenience to people, 
they have--because there isn't a broader understanding of the 
power and importance of patents for small companies to raise 
money, for companies to protect themselves internationally.
    I was at the CDS yesterday in Las Vegas watching all sorts 
of Chinese companies parade their little Segway copies around, 
and I am not sure what we can do about it anymore because the 
United States that used to be the pillar of we don't make 
compulsory licensing, it was the country that believed in, you 
can own private ideas and private property, suddenly even the 
debate about how we are so drastically undermining the 
importance and value of patents and being able to keep it is, I 
think, emboldening the rest of the world to do what they are 
doing and this country's major economic future is depending on 
intellectual property and innovation. This is the wrong time to 
be weakening it.
    Mr. Massie. My time is expired, but before we touch the 
patent system again, I would love to have you come back. Would 
you be willing to testify on that subject? Because I think it 
is important. Otherwise we are pushing the string uphill to get 
these kids to become inventors.
    Mr. Kamen. My whole company depends on the--I have 500 
people. We don't make or sell a product. We work for these 
giant companies giving them better solutions for their next 
products. I would go anywhere to testify on this because my 
company's future and I think this country's future depends on a 
strong patent system, and calling this a reform is a euphemism.
    Mr. Massie. Thank you very much, Mr. Kamen.
    Chairman Bucshon. Thank you very much.
    I now recognize Ms. Esty for her questions.
    Ms. Esty. Thank you, Mr. Chairman, and thank you, Ranking 
Member, and thank all of you for joining us here today. As a 
parent of a child who did FIRST, I went to those competitions 
well before being in Congress and I had a chance to go back 
last year, and I would recommend it to all my colleagues. It is 
very exciting and it really gets you--gets your juices flowing 
about what is possible, and for those who haven't done it, I 
would also say bring an astronaut to your schools, which I did 
in December, and I took them into a pilot program in one of my 
underserved communities into a middle school where half the 
students were girls, and it was incredibly exciting. These 
astronauts were treated like rock stars, and they told stories, 
and NASA is very good at this, and I would--this is the sort of 
thing we can do because I really want to drill down a little 
bit of what more we can do about the specifics for the 
underrepresented.
    If you look in a state like mine like Connecticut, I had a 
caller this week from Newtown, Connecticut. He is looking for 
five programmers right now and he can't find them, and we have 
students who are graduating and are going to graduate with huge 
amounts of debt and they won't have jobs and they will be 
baristas.
    So we really have to think about what we can do and how far 
back do we need to go. Certainly, we need to do it in high 
schools and we need to have those computer science programs, 
but should we be looking even further back? Should we be 
looking at elementary schools? What are we doing in elementary 
schools? I have got bills out there to try to support teaching 
in elementary schools because I do think that idea, I am not 
competent at this, I am not good at that, often starts because 
I have seen it with my kids. I saw it in classrooms, and 
disproportionately, I have to say, minority students and girls 
were led to believe they weren't good at these fields.
    So I would like you to think about that, and think about 
the role that competition plays, interactive actions where you 
fail, you try again, you fail, you try again, but you keep 
doing it because it is like Angry Birds and it is not like a 
test. So whoever wants to chime in on driving it even before 
high school the use competition and, again, what constructively 
the federal government's role be in that?
    Mr. Partovi. Thank you very much. Well, I talked about the 
Hour of Code, how we got 17 million kids to do that. There are 
not 17 million high school kids in this country, so a huge 
number of those, millions, literally, were in elementary school 
and middle school, and we showed them that you don't even need 
to be 13 or 14. There is eight-year-olds, nine-year-olds doing 
the Hour of Code. In terms of diversity standpoint, we had more 
girls try computer science and coding in U.S. schools in 
December than all kids in the history of the United States. We 
have very much flipped this idea that I can't do it completely 
on its head, and if we just continue to do that, people--as 
long as they make it fun, which computer programming is, we can 
show kids that they can do it.
    The biggest issue I believe actually is not the cultural 
one. I think the biggest issue is the access and especially 
among the underrepresented minorities, the fact that computer 
science, the schools that do teach it are suburban schools. 
They are not urban schools, they are not rural schools, so the 
underprivileged kids don't even have access.
    Ms. Esty. Mr. Kamen?
    Mr. Kamen. So again, we are in violent agreement that you 
have got to get their attitudes adjusted at a much earlier age. 
Otherwise they can't get on the train. It is moving too fast 
when they get to high school, and again, our sports model has 
been incredibly effective. We started it in high school but the 
proof that it works and it is a ground-up effort is the popular 
demand was, we need to have the equivalent of Little League 
because there is a World Series, there is college and then 
there is high school and junior varsity. Within five years of 
starting FIRST, which is now 20 years ago, there was such 
demand among the parents, ``What am I going to do for the 
younger brothers and sisters that come and watch this thing.'' 
So we didn't form a Little League, we formed Lego League, and 
the Lego company has a huge operation in Connecticut. The 
Chairman of Lego flew over from Bilund, saw what we were doing 
and said I will give you your Little League. We now have tens 
of thousands of teams, and we not only have Little League now, 
to your point, we have junior FIRST Lego League for the 
kindergarten on up, and it is a continuum now driven by the 
demand created by the superstar mentality of this whole thing.
    And one more comment about NASA. You talked about bringing 
astronauts. Just so that you all know, NASA--yes, I have Boeing 
with hundreds of teams and every aerospace giant and every 
pharmaceutical giant and every semiconductor industry company, 
they are all there, hundreds and hundreds of them, but the 
largest single source of teams for FIRST is NASA because all 
their facilities around the country supply mentors, they supply 
grants to underserved schools. Their Administrator, Charlie 
Bolden, came and was our guest speaker at our championship, and 
the kids love NASA and space and technology. They love it all 
if you don't make it intimidating. So NASA has been a great 
partner. If you could find a way to get other government 
agencies that have technology people to get involved, it would 
be great.
    Ms. Esty. Thank you very much, and I am out of time. 
Thanks.
    Chairman Bucshon. All right. Thank you.
    I recognize Mr. Schweikert.
    Mr. Schweikert. Thank you, Mr. Chairman, and forgive the 
buzzers. It is just one of those things that goes on around 
here.
    And forgive me if I am--Mr. Partovi? You just said you 
don't believe it is cultural, but Mr. Kamen about 20 minutes 
ago said it was, so I want to see the two of you debate each 
other.
    Sorry. Some of us have sort of perverse senses of 
entertainment.
    But I really would like to back up a theme that both the 
right and the left here have touched on and then backed away 
from. Is there something cultural in our sense of expectation? 
We all--let us face it, most of us in this room, particularly 
those with gray hair, think back to when we took our calc and 
trig and those things and it hurt. It was painful. Now, when I 
couldn't do the homework, I didn't want to go to school the 
next day because there was always that freaky smart kid that 
made fun of us. Sorry for anyone in the room, MIT with a bunch 
of patents.
    And yet I am told today that the United States, the only 
thing we score the top of the world in is self-esteem. Have we 
done something perverse to our next generation and the 
generation after that culturally and saying it is not always 
warm, fuzzy and teddy bears and puppies. It is hard--it is hard 
work. It is going to be painful, and guess what? That is how 
you get there. And that is why I am looking for consistency in 
thought where someone says it is cultural, it is built into our 
expectations of each other and avoidance of pain, and it isn't. 
What is it?
    Mr. Partovi. I would like to clarify what I said. I 
actually completely agree with you. The country has a cultural 
sort of impediment. People don't think I should work hard and 
get an A plus, it is geeky to be an A student, you would rather 
make it onto the football field than be the kid with lots of 
books and you know, the smartest kid in the room. What I was 
trying to say is that with computer science, there has been an 
additional cultural impediment of just oh, my God, it is all 
ones and zeros, I will never, ever be able to touch that thing, 
and people place in their minds computer science and 
programming as this thing that is harder than trigonometry, 
harder than calculus, way out there, and what I think we can 
easily prove when you see that 8-year-olds can do it, and not 
just one 8-year-old but millions of 8-year-olds, at least that 
one piece, which is disconnected from reality, gets more 
grounded. But we still need to have a culture that celebrates 
the successes, treats, I guess, engineers and scientists as 
rock stars and teaches Americans that you have to get A's to be 
cool.
    Mr. Schweikert. Well, speaking of rock stars, the gentleman 
to your right, I mean, Mr. Kamen, you're touching and working 
with a lot of these young people. It is my vision of sort of 
cynicism that our avoidance of what is difficult, our constant 
concern about people's self-esteem is an impediment to the 
understanding of this is reality. Reality sometimes is hard.
    Mr. Kamen. So once again, I am in violent agreement with 
you including the guy next to me.
    Mr. Schweikert. Could we avoid the word ``violent''?
    Mr. Kamen. I am in substantial agreement with you, 
Congressman, and I would tell you, first of all, one of our 
taglines at FIRST is always, it is the hardest fun you will 
ever have, and we then go on to point out to these kids, you 
are going to fail, we have given you a job that you can't 
possibly do with the limited resources and limited time we have 
given you to have to work in complex groups, you are going to 
fail, but that is a microcosm of the real world for people that 
eventually succeed, and we literally then go on to tell them 
all that stuff as you pointed out, we say, you know, why do you 
learn trigonometry, why do you learn all these things, you have 
never had a place to use them. You are going to quickly find 
yourself trying to do something that without understanding 
arithmetic and algebra and trigonometry and some calculus, you 
are not going to have the tools to do well, so we make it 
relevant but we make it fun, and as another place I 
substantially agree with you, we allow them to fail, to learn 
from those failures, and we say to them, you know, in sports 
you go out and you started with tee ball, the ball didn't move 
but you had to see a path. And then we say to them, in sports, 
if you didn't get it, you have a chance tomorrow. You don't get 
a grade, you don't get a D, you get a coach that nurtures you, 
and we are going to put you in teams where you can be failing 
and failing and failing but learning and learning and learning.
    Mr. Schweikert. I was trying to go to something that is 
much more cultural, and I know, Mr. Chairman, we are up against 
time, and for Mr. Cornwell [inaudible]--down the food chain of 
education in our society, and so I know we are out of time, Mr. 
Chairman, but I don't know if we will get another round. Thank 
you for your patience.
    Chairman Bucshon. Thank you very much.
    I now recognize Dr. Bera.
    Mr. Bera. Thank you, Mr. Chairman, thank you, Ranking 
Member Lipinski, and thanks to the witnesses.
    Mr. Kamen, I enjoyed the video as well as the sports 
analogy. You know, as somebody who grew up with a pretty good 
outside jump shot, I think it became evident in about 8th grade 
that I wasn't going to be Jerry West or Wilt Chamberlain. 
Fortunately, though, in the public schools I went to, I had 
teachers that believed in me and pushed me and, you know, I 
excelled in science and the life sciences and went on to 
medical school and a doctor.
    But they were allowed to meet me where I was and they were 
allowed to push us and encourage us to imagine and dream and 
think, and as I toured--you know, being a professor at a 
medical school, associate dean of a medical school, I spent a 
lot of time looking at what we are doing in K-12 as well as 
undergrad and grad school, and much of what we are doing in the 
STEM fields is memorization and regurgitation, and we really 
need to expand and get back to imagination, you know, to 
encouraging folks to solve problems and teaching our kids at an 
early stage not just to memorize and regurgitate but to think. 
Coding allows you to do that, right? I mean, coding and, you 
know, the innovation labs. You know, in my district, Intel has 
a major presence and, you know, what they are doing. When I 
talk to the Project Lead the Way kids, they are allowing them 
to imagine. It doesn't have to cost a lot of money. It has to, 
you know, allow us to change a curriculum, though, that is very 
much testing-based. And it's not that easy to test computer 
science or test on a multiple choice test imagination. You 
know, I had wood shop, metal shop, auto shop, you know, and you 
had to do mathematics in a very different way in those, and you 
had to dream of a project, put it on paper and make it happen.
    You know, I am glad that Mr. Partovi is here. You know, 
last month I visited Toby Johnson Elementary School in my 
hometown of Bell Grove in my district and watched these kids, 
7th and 8th graders, doing their Hour of Code using your 
curriculum. Again, not a lot of money, not a lot of investment, 
just a desire and a recognition that this was important.
    I guess my question to any of you on the panel is, how do 
we start changing the curriculum to allow that imagination 
curriculum, that innovation curriculum to take place at an 
earlier stage? Because we have got to do it in the elementary 
schools and, you know, we have got to push imaginations.
    Dr. Jona. Well, I think we have seen a number of questions 
around this theme. I think if the science and math classrooms 
in our country look like FIRST Robotics, we wouldn't have to 
have this conversation because we would see how much fun kids 
have. Unfortunately, if you look at most math and science 
classrooms, it is a very sort of punitive, assessment-driven, 
risk-averse environment for kids, and that is not an 
environment where science and engineering thinking, or even CS 
thinking, can really happen. And so, you know, it is very 
antithetical to the spirit of engineering, as we have heard Mr. 
Kamen say over and over, you have to try, you have to fail. But 
kids when they come home from school and, you know, my four 
kids are the same way, failure is a bad thing and failure is 
something that you avoid at all costs because once it hits your 
GPA, it is all over and then your, you know, college career is 
over and whatnot. So it is a systemic issue that, you know, has 
to do with the culture of assessment and sort of the punitive 
nature of school, and it turns a lot of kids off to harder 
subjects, quote, unquote, because they are afraid to try 
because it is hard and they are going to fail.
    Dr. Cornwell. May I make one other comment on that? I think 
it is critical to have teachers who are content experts who 
have the ability to let the class go in different directions. 
If the teacher doesn't feel comfortable with the material, they 
are probably going to be very rigid on how they do that. And 
the current pay structure doesn't allow necessarily for 
different pay for computer scientists who could, with a 
bachelor's degree, get a job for $100,000. Why would they go 
into teaching? It is a very challenging value proposition, but 
I think we need teachers who are content experts that can truly 
get students excited because teachers can have such an 
incredible impact on students.
    Mr. Kamen. And to be somewhat of an optimist here, I am not 
sure you have to change the whole curriculum, and that is sort 
of our point as to why FIRST works. Kids are not going to 
bounce the ball for three hours a day because you put it in the 
curriculum and tell them to do it. They will do it 45 minutes 
once a week and some--but they will go out after school and do 
it seven days a week because they are inspired to do it.
    We don't claim that the NBA is part of curriculum but we 
have a culture that says to these kids, ``do it.'' And as you 
pointed out, you can do it after school and fail a lot and fail 
a lot and get a few of those shots in and keep going because 
you didn't get a quiz; you didn't get a test. It is a perfect 
environment to encourage people to fail and get better.
    So using the same analogy, we say--and we have heard people 
up there say--kids don't want to learn trigonometry because it 
seems really hard and, more importantly, it has no value. In 
the curriculum, leave it alone. The schools will do a great 
job. That gym teacher will do a great job of teaching kids the 
basics. They will go out and become experts because of their 
passion. You still need those analytic skills. You need to 
learn arithmetic and geometry and trigonometry, but you are 
only going to really learn them well if you have some 
motivation to use them after school when you really develop the 
skills.
    So by that same now-tired sports analogy, I will tell you 
let the curriculum do what the curriculum is supposed to do: 
give them the basic tools, not by memory, but give them the 
basic tools. That is analysis. But synthesis is taking all 
those tools and doing things with it. Bouncing a ball is work. 
Playing basketball is fun. You do one because of the other. 
They don't have a ``because of the other.'' Particularly kids 
in underserved communities don't have a ``why am I doing this'' 
answer. If you let them have FIRST in and around their culture 
and their community, they are going to need to learn to code 
because their robot won't move without it. They are going to 
need to learn algebra or they can't figure out voltage and 
current.
    If we can meld the fact that schools ought to have a 
curriculum that is analysis-based, teach them everything that 
came before us, but then give them opportunity to use synthesis 
to create new imagination, all of that stuff should be working 
hand-in-hand, not one or the other.
    Chairman Bucshon. Thank you very much, Dr. Bera.
    I now recognize Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    I want to thank all of you. And I am intrigued with a 
couple of thoughts here, and I am going to maybe direct these 
more to Mr. Partovi and Mr. Kamen because it is obvious to me 
that both FIRST and Code.org are existing without federal 
funding. This is the private sector and entrepreneurs and those 
that really care about the future of our country doing what you 
are doing, and thank you for that.
    So my comment is, as a new Member of Congress, I came here 
with a core philosophy that big government generally doesn't 
have the answers. And in Congress, all too often, especially 
when you look at the debate on the right and the left, there 
are those who think government can solve all the problems.
    We are here in Congress--and some of the questions have 
been directed to you, what can we do in Congress? Part of my 
philosophy is nothing, that education starts with parents. And 
especially as we talk about feeding the pipeline, the K-12, 
parents care about their kids' future. It is the parents' job 
to make sure--go to the local school board. The local school 
board is hiring the teachers and setting a curriculum that 
works. And that school board answers to the taxpayers and 
ultimately you go to the state. Last, you go to the federal 
government. I don't think we should be involved in this 
education debate. What you are doing doesn't have any Federal 
involvement. I would say the answer is the parents motivating 
the school board.
    And I am someone that has lived this. My son went to a high 
school that did not have Regents Diplomas. As a result, they 
didn't teach to the test. And by not teaching to the test, they 
could exceed everything the public high school was doing. So 
when it came time to graduate, he is now an electrical 
engineering student at Villanova with a minor in mechatronics. 
He won the physics competition, he won the SumoBot competition 
and came in second in the Trebuchet pumpkin-throwing 
competition. It was all about fun--throwing pumpkins, SumoBots 
crashing together--but it didn't come from the federal 
government. I don't think it can come from the federal 
government. I think it comes from parents pushing a school 
board and perhaps at the state level. And I just would love to 
hear a few comments from Mr. Partovi and Mr. Kamen. This 
philosophy of mine is we are here asking. I don't think it is 
our job.
    Mr. Partovi. So I would agree with you in terms of the 
philosophy, and it is--you know, constitutionally I would say, 
you know, the federal government doesn't have that many strings 
it can pull to mandate things at schools or parents. But I have 
one thing I would suggest that I have a slight disagreement 
with my colleague in that computer science currently isn't even 
in the curriculum and----
    Mr. Collins. Well, excuse me. What if we didn't have a core 
curriculum?
    Mr. Partovi. So that would be one way of achieving it, but 
the issue we have right now is that the federal government----
    Mr. Collins. And I agree with you.
    Mr. Partovi. Yes. The federal government does decide--right 
now, it does specify in the ESEA this is the curriculum in a 
way that actually excludes computer science.
    Mr. Collins. Right. And that is why we shouldn't have it.
    Mr. Partovi. If you could abolish the ESEA you might get to 
a certain place, but whatever it takes to allow the schools--we 
have had one million parents petition via us. One million 
parents have signed a petition saying we want this in every 
school. They go to their school board and then their school 
board says, well, you know, we have this federal government 
funding that comes this way but it defines the curriculum this 
way.
    Mr. Collins. Unintended consequences.
    Mr. Partovi. Yes, but either way, we need to at least 
remove what I consider federal government barriers to schools 
actually responding to the parental pressure that they are 
receiving today.
    Mr. Collins. It is the least we could do.
    Mr. Kamen?
    Mr. Kamen. So I will say I don't think we are in 
disagreement. I believe that schools need to have way more 
access to computer technology in general, and kids through 
those schools need to get their earlier taste of it at a much 
lower age. So I think we are in agreement there. And I think he 
is in substantial agreement with you that creating systems--
government by definition is high inertia. It is big. It takes a 
long time to change. That is generally good because organized 
societies don't like chaos and they are afraid of change. So 
the things that you want to be big and stable, government is 
okay.
    Nothing is changing faster than the world of tech, and 
within the world of tech, nothing is changing faster than code. 
So they are not keeping up, to his point, and they should get 
out of the way of trying to mandate at the micro level for 
sure.
    I only have then two comments for you. One is I need your 
son's resume because we are desperate for more good 
mechatronics guys. Send him my way. He sounds like interesting 
young man. But I think another place where government should 
come in is to make sure there is a fair playing field. I mean 
that is what I think governments are really about. And these 
days, you can't expect a kid to compete in a fair way if he 
gets into--or out of high school or drops out of high school 
without certain kinds of skills. It is pretty clear your son 
was not at risk of not developing----
    Mr. Collins. Right.
    Mr. Kamen. --those skills, but there are plenty of families 
in this country or communities in this country that don't have 
the resource or even awareness or good judgment to go demand 
changes----
    Mr. Collins. Right.
    Mr. Kamen. --in schools, so there is some place for the 
government, which is, as I keep saying, don't run this program. 
We don't want you to run this program. The last thing we need 
is you to help us make FIRST part of curriculum. But make sure 
the schools that have that teacher or that principal that is 
ready to say we have got to leverage this incredible program--
--
    Mr. Collins. Um-hum.
    Mr. Kamen. --make sure they are encouraged to do it and 
have the resources to do it.
    Mr. Collins. No, thank you. Just to add, you know, because 
you do brag about your kids, my son is going to do his junior 
year internship in Tel Aviv working for the Israeli Space 
Program.
    Mr. Kamen. And I will tell you I will be over in Tel Aviv 
on March 2 where we are having a massive FIRST event. It is 
their ten-year anniversary. Shimon Peres is presiding over it. 
FIRST has a higher percentage of the schools in Israel involved 
than we have in the United States.
    Chairman Bucshon. Thank you very much.
    I now recognize Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chair, and thank you, witnesses.
    As I have sat here, my questions have changed over and over 
and over listening to all of my colleagues, and I will admit 
that I fall right into that stereotype. I ran away from science 
and math, and it was scary to me. But I think you hit the nail 
on the head as far as access and opportunity.
    I represent the Chicagoland area starting, you know, if you 
know Chicago, 53rd by U of C going south, so most of my 
district is suburban and rural and they don't have the 
opportunities, they are shaky.
    In some of my area's school boards. We have worked to bring 
updated computers to the high schools and to the elementary 
schools so the kids even have, you know, something to work on. 
So that is where I see government being the safety net, and it 
is not fair and equal at all, not even in the Chicagoland area 
if you compare the south suburbs to the northern suburbs and--
because of how we fund schools and property taxes and on and on 
and on. And if we don't do something about that, I don't think 
we will ever be fair and equitable.
    We started--I came in in April, special election, a STEM 
council and a STEM academy, so I have tech people and different 
people around the table with community colleges to see what we 
could do as far as changing the curriculum and what jobs are 
out there and what training people need. And then I go to 
different areas in my district and actually expose the kids. I 
took them to the Museum of Science and Industry, had them meet 
different people, had people come to them, tech people come to 
them, but, you know, we service 750,000 people and it is--you 
know, so I go to one school, then another school, then another 
school, and what did the kids say? Are you coming back next 
Saturday? Or, can we do this? And, no, I can't. I have to keep, 
you know, taking turns. So we are trying to get our businesses 
involved in even adopting schools so they have some, you know, 
steadiness or some constant, you know, in their lives to keep 
them interested. And--so I say that.
    And also the other thing is, you know, I have a doctorate 
so I definitely believe in education, but many of my 
manufacturing companies and advanced manufacturing companies, 
they say part of the issue is we go to school and we major in 
psychology like I did and then we can't find a job, and they 
feel that if kids graduate with the tools they need and get 
two-year certifications, they can get really good jobs, too. 
And I just wanted to know how you felt about that.
    Dr. Cornwell. I would just say I strongly agree with you. 
Not everyone needs a college education. We hear the same thing 
in Indiana as far as advanced manufacturing. For students who 
get a great technical education, there are wonderful jobs. So, 
I don't think everyone needs to go to college. I do think 
college is more than just job training, however. It really is a 
life-growing experience, but I do think it also should end with 
a job and meaningful employment. But I agree with----
    Ms. Kelly. And not $80,000 in loans you can't pay back.
    Dr. Cornwell. Well, that is right, or even $5,000 if it 
doesn't lead to a job. To me, our students at Rose-Hulman may 
have a higher debt, but they all get very good-paying jobs; so 
it is a good investment.
    Ms. Kelly. Um-hum.
    Mr. Kamen. They are all looking at me, but I think I am 
having a disproportionate time here.
    I would tell you that you say you, you know, ran away from 
it. Obviously, you have a Ph.D. You didn't run away from 
education.
    Ms. Kelly. Right.
    Mr. Kamen. I think, and I will just keep saying it, and it 
is not a disagreement, I think our culture certainly takes 
kids, particularly women and minorities and--at a very young 
age and puts in front of them people they can relate to from 
the world of sports and the world of entertainment. And the 
reason I think we agree is I think we have got to get to them 
very young and have them as passionate about developing skill 
sets that will lead to great jobs whether it is out of college 
or a tech job. But once you get them passionate, you have got 
to deliver the tools they need, and it isn't putting pins into 
frogs anymore. Everything he is saying is the skill sets--once 
we can turn them on to say I can do this stuff, whatever this 
tech stuff is, the tools you have got to give them have got to 
be 21st century tools to do the right stuff.
    And again, I will say it is not an either/or. The schools 
have to have curriculum. They have to have all the things 
that--you guys have to solve that problem of where the money 
comes from and where it goes and property taxes. But more than 
that, you could give the schools everything they want. And when 
I first started FIRST, I wanted our tagline to be, you know, 
``you can lead a horse to water but you can't make him drink.'' 
I wanted it to be ``you can lead a kid to knowledge but you 
can't make him think.'' And what I wanted to do was say get the 
schools as good as they can be, and that is your collective 
problem. I don't know how you do that. But it wouldn't matter 
if you had the best schools in the world if it is a 50 percent 
dropout rate because the kids would rather do something else.
    So let's get the schools to have the right tools and let's 
let the culture of America, the companies of America, the 
people that need these kids give them the right kind of 
inspiration to work hard at developing the muscle hanging 
between their ears. It is the only one that has unlimited 
potential. And the kids that need to know that most culturally 
are the kids you are talking about, and you should find ways to 
get the schools that you have been visiting to get some teacher 
to be a coach, to get on a team. We have the companies that 
will connect them. You need to get the superintendents to know 
that having afterschool passion-based activities that matter to 
the future of these kids and to this country are as important 
as the other activities, and that is an appropriate role of 
leadership.
    Ms. Kelly. Thank you.
    Chairman Bucshon. Thank you very much.
    I now recognize Mr. Hultgren.
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you all for 
being here. This has been a very interesting, very helpful 
hearing.
    One of my biggest frustrations with this place, Congress, 
is the busyness of it, and here we are talking about what I 
think is one of the most important subjects we could possibly 
be talking about and there is just a lot of other things going 
on. You hear beeps and buzzes and things, and that references 
the other activities, votes, committees, whatever, that we are 
being called to. I am so frustrated by that. I wish we could 
have this hearing in front of the entire Science Committee but 
also in front of the entire Congress. I think it is so 
important.
    If you talk to Members of Congress, every single one would 
say one of our top priorities has to be STEM education, that if 
we are going to be an innovative nation, we have got to be a 
nation that is committed to STEM education. But how do we make 
that happen? And I think that is where we struggle. You hear it 
up here is what is our role? And finding that right balance of 
what is the best way to motivate, mentor, and educate our 
students, specifically in STEM education, so that we can have a 
bright future as a nation. We are struggling with that. We need 
your input. We need your help.
    I also am--have enjoyed this so much but really am looking 
forward to the next panel of young people, which is really, I 
think, the--where the excitement is of seeing that from them. I 
talk to scientists. I represent Fermilab and have some 
wonderful physicists and they get so excited talking to other 
people about science.
    That challenge we have is, again, what is our role as 
government? And I think it is telling the story and taking away 
impediments, you know, of things that will allow young people 
to get excited and to be able to make the most of these 
opportunities. That is what we have got to do and finding every 
possible way to get rid of unfunded mandates that aren't doing 
anything to excite our kids but are taking away opportunities 
from them to pursue their real passions and real opportunities 
there.
    I want to thank Dr. Jona from Northwestern. You all have 
done a great job working with my staff and great job in 
Illinois working to bring STEM resources to local districts. I 
also want to just, you know, give a thanks and a shout out to 
Mr. Partovi and also to Mr. Kamen on a couple different fronts. 
One: last month, I went with my 12-year-old and 9-year-old 
and--to do an hour of coding in Elgin. We went to Elgin 
Technology Center, and I did the Angry Birds Hour of Code and 
was successful. I was able to maneuver and code my way through 
an hour and loved it and was really encouraged. And the lesson 
for me out of that was if I can learn how to do this, anybody 
can learn how to do this.
    I am serving on this Committee but don't have the pedigree 
that some of my colleagues have in these areas, but I really 
did see an excitement there, and what I was most excited about 
was my kids who were with me and how excited they got, my 9-
year-old and my 12-year-old, of doing this. And also my mentor 
in this process was a 13-year-old, who is on the robotics team 
in Elgin. ``Got Robot?'' is the robotics team that went to St. 
Louis last year, great team. They are--this kid is--the whole 
team is phenomenal. I am so proud of them, but they are so 
excited. And my 9- and 12-year-old also got to meet with the 
Got Robot? team to see their latest robot.
    But with it, what I was really excited about was they 
brought their brothers and sisters along, little brothers and 
sisters, who are doing the Lego robots. And boy, my 9- and 12-
year-old were kind of intimidated by the robot, but then they 
saw the Lego robots and they said we can do that. That wouldn't 
be that hard. And they could start seeing, okay, now I see how 
this works together, that we can do this.
    So I just want to commend you for what you are doing, and 
we want to be helpful. A couple of things just in the minute I 
have left: there are some challenge in this, too, is how do 
we--you know, one of the things I recognize is we see a lot of 
people who are going to college to pursue this and then are 
dropping out, maybe some for right reasons to pursue a career, 
others because they just didn't see it as what they thought it 
was going to be. So I just would ask what can we be doing to 
encourage people who should be staying in this to stay in it? 
Are there more internships, mentorships, other relationships 
that we can be encouraging or building that will help people 
who really are our best and brightest staying in this? 
Certainly, we want to do it on the early side, and I think 
FIRST is doing a great job at this. Code.org is doing a great 
job of this. But what else can we be doing to make sure young 
people who should be in this, stay in this?
    Mr. Partovi. I would like to say a few words that actually 
address your questions and some of the previous comments. You 
know, there was this conversation about kids don't like 
trigonometry, they don't like calculus, they don't like tests, 
and what we have showed and you saw with your own kids is that 
kids like making apps. They like making cool stuff. And, you 
know, with respect to the role of the federal government, 
without the federal government's help we have managed to get 
this into tens of thousands of schools. And in fact, even at 
the elementary level, even in rural schools in one month our 
curriculum that you saw, a 20-hour-long course is already in 
almost 10,000 schools at almost no cost with no funding other 
than what I have managed to raise.
    But the most important role for you guys I believe, however 
you want to do it, is to remove the barriers. And the goal I 
would think of it is basically put the ``T'' into STEM. When 
you think of STEM, your mind goes to us, the types of things we 
represent, but when you talk to a school about STEM, what they 
think about is predominately life sciences and math and maybe 
physics in between and the technology part isn't even there. 
And I showed you on the chart that more than 50 percent of STEM 
jobs are in computer science. Dean talked about the H-1Bs. More 
than 50 percent of H-1B visas are for computer scientists, but 
in our K through 12 system, STEM and the funding that comes to 
STEM and the definition does not include computer science. That 
is--that should be something that the federal government can 
play a role in because currently it does actually provide 
barriers.
    Mr. Hultgren. Yes. My time is up. There is so much more 
that I would love to talk with you all about. I really would 
echo that we would love to have you come back and have some 
more focused testimony on this and get other committees engaged 
and involved in this. I am a cosponsor of the Computer Science 
Education Act, which is a small step in the right direction but 
there is so much more we can be doing there to recognize how 
important that is.
    The last thing I will do is--will say is how important 
parents and teachers are. I just feel like that is the linchpin 
on this. So much is--I see so many parents who are intimidated 
by this and teachers who are intimidated by this, and anything 
we can be doing for them to see this is a great opportunity for 
your kids to have a great future and maybe change the future. 
And so Got Robot?, for example, this robotics team in my area, 
happens to be a homeschooled team, and so those parents are 
incredibly dedicated to their kids' education certainly, but 
also to that team, and it pays off such rich dividends, which I 
just was so inspired by and my own kids were inspired by as 
well.
    So thank you all. I wish we had a lot more time but also 
looking forward to hearing from students who are engaged in 
this. With this, I yield back. Thanks, Chairman.
    Chairman Bucshon. Thank you.
    Without objection, the Chair recognizes Ms. Edwards for 
five minutes.
    Ms. Edwards. Thank you, Mr. Chairman and to the Ranking 
Member. I really appreciate your allowing me to sit in on this 
Committee. This is not my Subcommittee.
    I wanted to just sort of talk to you because I come to this 
from a couple of different places. And, Dean Kamen, when you 
visited my son's school, Capitol Hill Day School, when he was 
in 8th grade, I know for him and all of those of students, it 
was very inspiring. And it wasn't that they were necessarily 
going into or studying those fields but it gave them a 
different avenue and approach to the work that they were doing.
    And I was a student--when I was a student, I had a great 
aptitude for science and math at all of the higher order 
sciences and math, and I wouldn't say I was discouraged from 
going into those fields at higher ed, but I was not actively 
encouraged, and as a result, I didn't. And it wasn't until 
after high school, after college, and a different direction 
that I happened upon Lockheed Engineering. I got a job there. I 
ended up first doing, you know, analysis and writing and 
software testing and then development that I discovered that in 
fact I did have a very practical aptitude.
    And so it worries me that sometimes we are--you know, we 
are in a situation now where we don't necessarily discourage 
students but we have to have more encouragement for students 
who may not think of that as their first choice because they 
may not have the parents at home who understand that or who 
are, like a lot of parents, intimidated by all of those higher 
order sciences and maths.
    And then as a worker in the sector, we--at Lockheed we 
wanted--a lot of the companies that were doing business at NASA 
wanted a relationship with the school system but it was so 
incredibly difficult. When could our engineers be in the 
classroom? Could they only be in there for an hour or two a 
day? Could the students come to our facilities, all of those 
things, and we are still working out some of those kinks in 
terms of the relationship with the private sector that gives a 
much more practical vantage point of how to do work in and with 
our school systems.
    And then, lastly, as a Member of Congress, every year I do 
a college fair. We invited--this last year, we had about 165 or 
so colleges and universities. And the focus of that is we bring 
in employers as well to do demonstration projects around STEM 
fields. We actually had a computer coding project that was run 
by one of our local companies, and, you know, each one of them 
participating because it helps for students to say where is it 
that I am going? What is the direction I am proceeding in? And 
then we had the National Association of Black Engineers, and so 
for the first time--my district is majority African-American--
that these African-American students who are going to the 
college fair could actually see engineers who look like them, 
who are doing projects with them, so that they could see a 
direction they were going in.
    And so I just share that with you because I don't think it 
is one thing or another thing, and I think sometimes the 
federal government has to set a floor but it can't be the be-
all and end-all. And in our next panel we are going to hear 
from two students who come from counties that I represent in a 
State where we have said we can't just have one science or 
technology school; we have to have that kind of learning taking 
place in all of our schools. And it is a real transformation 
from the time that I was at Lockheed and out at Goddard to 
where we are now.
    But I just--I applaud you for the--for what you shared with 
us but I also know that the private sector is going to have to 
step up and work with our schools and our institutions of 
higher learning so that we are getting a better match of people 
who are coming out with degrees and the kind of work that is 
done in the workplace because we have such a mismatch now that 
it is the reason that you have to struggle with those H-1B 
visas. And God love those people who are coming in to our 
companies, but it is because we have a terrific mismatch 
between the students we are producing, the skills that they 
have, and the workforce needs, and we have to marry those up.
    And I just--I close my comments because I really came here 
for our second panel, but I applaud what you do and I hope, Mr. 
Chairman and to the Ranking Member, that in Congress we can see 
across the aisle to begin to get this right from a policy 
perspective in the Congress. And I thank you for being here.
    Chairman Bucshon. Thank you very much.
    Now, without objection, the Chair recognizes Mr. Kennedy 
for five minutes.
    Mr. Kennedy. I will be quick. I promise. Thank you, Mr. 
Chair. I appreciate that. I appreciate the opportunity.
    To the witnesses, thank you for indulging yet another 
Member that is not on this Subcommittee but is on this 
Committee and has great interest in this topic. Thank you all 
for being here.
    I wanted to build a little bit off of my colleague 
Congresswoman Edwards' question or point I guess. I am very 
interested and actively engaged in a number of STEM initiatives 
in Massachusetts and through the work of this Committee. One of 
the challenges I have seen in Massachusetts is a bit of the 
mismatch that Ms. Edwards pointed to, but a demand from the 
private sector to provide more talented engineers and 
scientists, computer scientists. But as we try to structure 
what that actually is and looks like, our reluctance of some in 
the private sector to recognize that this is--to look at STEM 
and STEM initiatives as a long-term investment in their own 
business and business model rather than a short-term corporate 
philanthropy initiative that, given a bunch of iPads or a 
school field trip or something and taking a photograph and 
sending that out in their newsletter, that is how it is 
approached more so than a strategic overall development of an 
overall strategic plan. And I was wondering if you could give 
any recommendations to me or to this Committee as to how to get 
the private sector more involved in some of these long-term 
efforts? Whoever wants to take it.
    Mr. Kamen. Well, for one thing, as you have heard a number 
of times, I think a lot of the problem is not to do anything; 
it is to stop doing things that are counterproductive and get 
rid of hurdles and barriers that might have made sense when we 
were an industrial society. You needed rows of student lined up 
and seeds here and then they take the summer off to, you know, 
bring in the crops, which I am sure a lot of them are doing 
today.
    But the idea that, for instance, a scientist, a Ph.D. in 
mechanical engineering, can't go into a school because they are 
not qualified to teach, that is fine. We don't want to create 
an issue there, but, for instance, let the students get credits 
for being on FIRST programs. Let them get college credits. We 
know the colleges are desperate for our graduates and our 
alumni. Find ways to take down the barriers that we have 
historically had between industry and schools, make it easier 
for the teachers to get credits for being involved with 
industry and learning how to bring coding into the school.
    I mean there is so much structure which, again, makes--you 
know, inertia is a difficult thing to overcome, but knocking 
down barriers and creating the right incentives and--I will 
keep saying it--just showing up and cheering for kids that are 
doing something, it--you can't underestimate--you said you 
weren't actively discouraged but you look at how many other 
things were stealing your attention, the co-mission as opposed 
to the omission. I think you were actively discouraged because 
of so much else in our culture that was sending you to 
different places for different reasons. You were lucky, but 
there are a lot of kids in this country that are going to get 
past an age where they can develop the skill sets for these 
great jobs because they were distracted by a whole lot of 
nonsense. And government can help get rid of some of that 
nonsense.
    Dr. Jona. Yes. I would just add, you know, there is a broad 
range of incentives that the private sector has to invest in 
R&D and build plants and bring in jobs. It might be worth 
considering some incentives to foster that long-term thinking 
that you are talking about, whether it be tax credits or other 
kinds of incentives. It could be anything from as simple as 
providing summer teacher internships at businesses so that they 
can keep current with engineering and scientific practices or 
coding practices. You know, a lot of the small startup 
companies are way too small to afford to host these internships 
like larger companies do except that is where all the 
excitement and activity is these days.
    So I think there are some creative opportunities to 
incentivize business participation, you know, over the long 
haul. As you said, it is a self--partially self-interested 
workforce development issue, but it could benefit our STEM 
education.
    Mr. Kennedy. Thank you.
    Mr. Partovi. If I may answer, you know, I agree with you 
that many of the efforts you may see from large companies are 
either trying to just hire the next engineer or trying to, you 
know, hire high school immigrants or do a laptop giveaway to 
take a photo opportunity, but we have actually built a very 
strong coalition of some of the top tech companies thinking 
long-term, and they are investing in elementary school 
education, which isn't going to pay them back dividends. It is 
paying the country dividends.
    And just to give you a sense, we may be one of the only 
nonprofits that can claim Google, Apple, Microsoft, Amazon, 
Facebook, LinkedIn, SalesFirst, Juniper, all collectively 
participating not in small levels but Google put--changed their 
logo for the Hour of Code. Apple put it into every single store 
in the United States. Microsoft and Bill Gates and Mark 
Zuckerberg delivered video lectures for us. Amazon hosted our 
infrastructure. These are all very long-term investments in 
changing the system, and these companies actually want to form 
a public-private partnership to bring computer science to all 
of America's schools.
    Mr. Kennedy. Thank you and I yield back my negative time.
    Chairman Bucshon. You didn't have any time left.
    Well, I would like to thank all the witnesses. And also we 
didn't talk about it much today but I do think the retention 
issue of students that do initially go into STEM is a big deal, 
and there is some--I am a big Gladwell fan and his most recent 
book ``David and Goliath,'' he talks about the fact that the 
mismatch between the student and the school, which school that 
they choose, is important in that area. If the student chooses 
a school that doesn't match them either challenge-wise or 
otherwise, they have a tendency to drop out and feel like they 
are not--they can't compete. And so school mismatch is a big 
problem.
    But I would like to thank all the witnesses. The Members of 
the Committee will have--may have additional questions for you 
and we will ask you to respond to those in writing. The 
witnesses are excused from this part of our hearing. We are 
going to take a very short break. If everyone that can stay 
seated, please do, because we are going to try to transition as 
quickly as possible to the next hearing.
    Thank you very much.
    [Recess.]
    Chairman Bucshon. All right. We are glad to begin our 
second panel. If everyone could be seated, we will proceed.
    This is going to be a fascinating part of the hearing 
because we are actually going to hear from those for whom STEM 
education is most important, and that is the actual students.
    Thank you for being here. I know it may not have been easy 
to get permission from your parents and teachers to come, but I 
think when you told them you were going to testify in front of 
Congress, maybe they gave you a little latitude, and obviously 
you are here.
    We know that not every program gets every student excited, 
but we are interested in learning from your experiences and 
perspectives whether it is through FIRST, Code.org, VEX 
Robotics, Project Lead the Way, the Science Bowl, or something 
else.
    Our first witness for our second panel is Ms. Ellana Crew. 
Ms. Crew is in the 12th grade at South River High School in 
Edgewater, Maryland. Our second witness is Mr. Brian Morris. 
Mr. Morris is in 12th grade at Chantilly Academy in Chantilly, 
Virginia. Our third witness is Mr. Daniel Nette. Mr. Nette is 
in the 11th grade at George Mason High School in Falls Church, 
Virginia. And our final witness is Mr. Vishnu Rachakonda. Mr. 
Rachakonda is in the 12th grade at Eleanor Roosevelt High 
School in Greenbelt, Maryland.
    Our witnesses should know that spoken testimony is limited 
to five minutes after which the Members of the Committee will 
have five minutes each to ask you questions. Your testimony 
will be included in the record of the hearing.
    I now recognize our first witness, Ms. Crew, for her 
testimony. Welcome.

                 TESTIMONY OF MS. ELLANA CREW,

              12TH GRADE, SOUTH RIVER HIGH SCHOOL,

                      EDGEWATER, MARYLAND

    Ms. Crew. Thank you, Chairman Smith, Chairman Bucshon, 
Ranking Member Lipinski, and Members of the Committee. I am a 
little different than most of the other kids here for two 
reasons, one being I am legally blind, not fully blind but not 
fully sighted, caught in the middle, also because I am actually 
not going into a STEM career, but it still definitely has 
changed a lot and encouraged lots of things for me just being a 
part of FIRST. I have never been able to play sports. I 
couldn't see well enough to do it and I was always, you know, 
your immediate target for dodgeball in all my classes. They 
went out of their way to try and I was always the first one 
out. So sports were never a thing, games were hard. Lots of 
other activities were always difficult.
    And I first heard about FIRST through a friend of mine who 
was on the team and her sister was as well. They had been doing 
it for a while. And the way she talked about it, it seemed like 
such a great atmosphere and it seemed like a really good 
opportunity, so I applied for the next year and got into it on 
the business side.
    And once I was in, after a while, I just got adjusted and 
you meet all kinds of people. You see all kinds of things and 
progress. It is very interesting to see. And, I mean, robots 
are cool. But there is a place for everybody really. I didn't 
have to worry about being judged for anything. I didn't have to 
worry about whether or not I could do it. I could not work on 
the robot directly or anything, so I couldn't be on build 
because I couldn't quite see well enough to do that, but there 
is--you can certainly been involved. And when you watch it 
happen, it is really, really very cool.
    That is all I have to say.
    [The prepared statement of Ms. Crew follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Thank you very much. It is a fascinating 
perspective that you don't have to be interested in a STEM 
field to benefit from a STEM education and what it can offer 
students in all areas of whatever their interests are.
    I now recognize our next witness, Mr. Morris.

                 TESTIMONY OF MR. BRIAN MORRIS,

                 12TH GRADE, CHANTILLY ACADEMY,

                      CHANTILLY, VIRGINIA

    Mr. Morris. Good morning, Mr. Chairman, and Ranking Members 
of the Committee.
    I am a veteran FIRST member with my involvement spanning 
seven years and several programs offered by FIRST such as FLL 
and FRC. FIRST has been an integral part of my development as a 
person, as a student, and as an aspiring engineer, and it has 
challenged and trained me in ways normal classroom schooling 
never has. And because of FIRST, I feel more prepared to face 
the challenges and obstacles of the real world than I ever 
imagined I would.
    My involvement with FIRST dates back to the 7th grade when 
five of my friends and I decided to give robotics a try through 
FIRST Lego League. While I originally thought of FIRST programs 
only as games to play for entertainment, I soon realized they 
were so much more. FIRST isn't just about the competition. It 
is also about the life and learning experiences of being on a 
team, working with technology, solving problems, and inspiring 
others to do the same. This is really what got me hooked on 
FIRST: competing, learning, and having fun all at the same 
time.
    I couldn't say what my favorite part of FIRST is. There is 
really so much I have enjoyed. I have had the chance to work on 
long-term projects, seeing them go from the drawing board to 
physical, finished products, which is my favorite part of 
engineering. I have learned invaluable technical skills, as 
well as how to manage and lead large groups. The FIRST 
community puts the program above any individual goal or 
interest, and it is overwhelmingly helpful and supportive 
thanks to the principle of gracious professionalism. The 
outpouring of passion and enthusiasm at FIRST events is truly 
refreshing, and watching the enthusiasm of so many young people 
for science and technology gives me hope for the future.
    FIRST has helped me discover my passion for engineering, 
and because of FIRST, I can definitively say that I want to 
pursue electrical engineering and computer science as a career. 
I have applied to several top engineering schools in Virginia 
and the Nation, and I hope my experience with FIRST will give 
me an edge up in admissions. But no matter what university I 
end up at, I am sure the skills I learned with FIRST will serve 
me well in my studies and beyond.
    [The prepared statement of Mr. Morris follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Thank you very much. And I am sure they 
will.
    I now recognize Mr. Nette for his testimony.

                 TESTIMONY OF MR. DANIEL NETTE,

             11TH GRADE, GEORGE MASON HIGH SCHOOL,

                     FALLS CHURCH, VIRGINIA

    Mr. Nette. Thank you, Members of the Committee.
    I first learned about FIRST from my older brother, who was 
a founding member of Team 1418 at my school in 2004, making 
this our 10th year. He--I--he currently serves as the 
tournament director for a FIRST Lego League tournament held at 
our local middle school.
    Unlike many of my science and mathematics classes, FIRST 
provides the opportunity to apply hands-on solutions to real 
challenges. As we compete--complete the challenge, we also 
learn valuable skills like team building, communication, 
leadership, and especially the four elements of STEM. Through 
the program, I have refined my ability to seek my own solutions 
to problems and develop my own desire to learn. Working with 
robots has helped me learn about idea development, material 
properties, pneumatics, metalworking, and motors by applying 
concepts that I learned in the classroom to a real life 
problem. FIRST gives us a challenge each year and then we go 
through the process of brainstorming, designing, prototyping, 
building, and of course rebuilding multiple times until a 
working solution is achieved. In addition to the processes, the 
pressure of a six week time constraint to complete the task at 
hand, I know I will encounter these deadlines and utilize these 
problem-solving skills in my future career.
    Many students involved in the program experience for the 
first time the importance of interaction and communication with 
adults such as mentors and judges. While that was not a problem 
as so much for me because of my experiences in becoming an 
Eagle Scout, I discovered the power to spread the ideas of 
FIRST at a dinner conversation last year with a family friend 
who became very interested in the program. She invested in a 
Lego robotics kit and took it on a mission trip to a school in 
Rwanda so that the students there could begin to learn about 
robotics. She then went on to serve as a judge at a recent FLL 
tournament and hopes to become a mentor in the near future.
    As a student, I have always had an interest in mathematics 
and science but it wasn't until the last few years, through my 
experience with FIRST, I realized that I would like to pursue a 
career in STEM. I plan to apply to Virginia Tech and hope if 
accepted to be able to work with robots to solve real-life 
challenges.
    [The prepared statement of Mr. Nette follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Excellent. Thank you very much.
    I now recognize our final witness, Mr. Rachakonda.

              TESTIMONY OF MR. VISHNU RACHAKONDA,

           12TH GRADE, ELEANOR ROOSEVELT HIGH SCHOOL,

                      GREENBELT, MARYLAND

    Mr. Rachakonda. Thank you, Chairman Bucshon, Ranking Member 
Lipinski, and other Members for being here and listening to my 
testimony.
    My name is Vishnu Rachakonda. I attend Eleanor Roosevelt 
High School. I am in the 12th grade. Actually, we have a 
significant number of students from Ms. Edwards' district 
herself. My experience with FIRST is that I started with FLL in 
the 7th grade just like Brian, and I spent four years in FRC 
now. And I just have to say my fellow students touched a lot--
very well on the educational aspects and values of FIRST, and I 
would just like to talk a little bit about my personal story.
    I think with FRC, especially FIRST in general, I described 
it in three ways: spirited, challenging, and fun. I am a 
basketball fan, I am a football fan, I am a tennis fan, so I 
love, you know, hearing everyone talk about basketball here and 
seeing Chris Bosh on the screen. But for me FRC has been so 
spirited, so different from every other educational activity I 
have been to. There is a subculture behind it. There is, Dean 
Kamen--Mr. Kamen, he is my James Naismith. Woodie Flowers, the 
guy who comes up with the challenges behind it, all the mentors 
who do it, they are my Lebron, they are my Kobe. They are the 
people who are my role models with respect to engineering, and 
I think that is very unique to FIRST and in general to these 
kind of STEM activities.
    I think that FIRST--the challenges that are before me have 
pushed me to engage these fields--these STEM fields differently 
and more thoroughly than anything I have ever done in class. I 
took AP Physics B, I took AP Physics C, I have done all these 
AP classes, and I have gotten the grades, but being in FIRST, I 
can't say I am the best engineer in my club because I am not. I 
have gotten higher grades than the best engineer but Kyle beats 
me at being an engineer. So I think that in challenging me, it 
has been very unique and more different, and I think that is 
very valuable.
    And finally, it has been fun. I think we have all alluded 
to how being fun, I think, is critical in engaging students in 
STEM and whatever--in STEM and these fields. And FRC has 
certainly done that and FIRST programs have certainly done 
that. I think importantly the fact that we get to interact with 
these professional mentors has made a huge difference in my own 
life. You know, I work with Mr. Healy, who is here, you know, 
with me today, and I think that these people have become role 
models, you know, in pursuing an engineering career and then 
also giving back to the community. I think that FRC has made a 
personal change in me on that level.
    I would just like to tell a short story about how I have 
come to appreciate FIRST more. Recently, I went to Japan on a 
trip to present some original research, which I hope to come 
back to, but original research. And at that conference for high 
school students it was--you know, there is something called 
World Premier Research Institutes in Japan. They are modeled 
off American universities and how we have phenomenal research 
institutions. They are doing the same thing in Japan to try and 
replicate what we do. And when I was there, they were asking me 
what do you guys do in school? What do you guys--you know, what 
is it that you do that allows you to do such good research? 
Because we are presenting unique research that Japanese high 
school students there were not capable of doing, not for lack 
of intelligence but for lack of facilities, for lack of 
support. And when I told them about FIRST, about what we did, 
about how we manage a $25,000 budget, how students build these 
120-pound robots, they were absolutely flabbergasted. I mean 
these were top scientists but they were saying kids can do 
that? Are kids smart enough to do that? What? But the point was 
that it allowed me to appreciate FIRST and the programs that 
these--you know, these unique private sector STEM programs are 
engaging in. You know, Code.org, all of our students on our FRC 
team, they learn coding through Code Academy, through Code.org, 
all these websites, and it is really opening up new avenues for 
us.
    So, you know, I guess hopefully three things that I guess 
maybe this discussion would include would be teacher support, 
which I think Mr. Kamen was talking about extensively. I think 
it is very difficult at my school to get people--to get 
teachers to support programs. I had to--Science Bowl, you 
mentioned that. I need to find a new sponsor for my Science 
Bowl team this year because my old teacher said she couldn't do 
it this year, and it was hard I mean because teachers just said 
I have so much work. I have so much work in terms of testing or 
whatever it is that they weren't able to be, you know, sponsors 
or whatever. So hopefully, you know, some way teachers can be, 
you know, more focused on--or allowed to sponsor these kind of 
private sector STEM programs like FIRST because it all starts 
with the school, and if you don't have that school support, no 
team can survive.
    You know, internships and stuff like that, I think real 
world experience, practical STEM experience like FRC, like 
internships are critical, and I think that, you know, up here, 
Dr. Jona was talking about GPA and stuff like that. I think it 
comes back to college admissions. I think that is an important 
aspect to this STEM engagement for students. And, yeah, I 
just--on a personal note, I plan to, because of FIRST, major in 
biomedical or electrical engineering when I get to college. I 
don't know where yet but hopefully I will learn by the end of 
March. Thank you.
    [The prepared statement of Mr. Rachakonda follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Thank you for--all of you for your 
testimony. I am not sure at your age that I could have 
testified that well in front of Congress. Truly--and I still 
can't. Thank you, Mr. Massie, for pointing that out.
    Fascinating to hear from the students, and I want to remind 
the Committee Members the rules limit questioning to five 
minutes.
    And at this point I will recognize myself for five minutes 
to ask some questions.
    Ms. Crew, in your testimony you noted that your--the focus 
on the business side of FIRST. Can you tell me about what the 
business side entails as part of an FRC team?
    Ms. Crew. The business side kind of--they do a lot of work. 
There is all kinds of sub teams. We do--we manage all of the--
like the awards that we enter, Chairman and--everything. The 
graphics especially is a huge part of the business side. I am 
on community service personally, which we--you know, we reach 
out. We donate; we do whatever we can to help. But there are 
multiple sub teams and they all have a really big part in it. I 
don't know where we would be without graphics. I don't know. We 
probably wouldn't have won anything without the awards team. It 
is a very large, intricate, complicated thing. I don't know if 
all teams are run like that, but at least mine is. It is a very 
good system.
    Chairman Bucshon. And, Mr. Morris, do you want to have a 
comment about that?
    Mr. Morris. Yes. I would just like to elaborate on the less 
technical aspect of the team. A lot of these teams, mine in 
particular, are run like a corporation. There is a leadership 
structure and there is a product that the team produces that is 
a robot, but there is also all the support that goes into 
running an organization. So you have funding people. All of 
these teams are self-funded. They don't get funding through the 
school, so we have people who have to go out. They have to seek 
corporate sponsorship. They have to find mentors if there is no 
infrastructure in place to help get the mentors. And all of 
this is done by students. So even non-STEM people--I--as the 
executive of my team, I have not just engineers, I have 
marketers, I have business people, I have graphics design and 
website people. And these are all people that you need to run a 
FIRST team, so it is not just about the engineers even though 
that is obviously the focus, but we say this to people when we 
are recruiting for the team. There is a place for anyone no 
matter what your skill set. If it is public speaking or writing 
or anything, there is a place for you. And that is kind of 
the--what the business side is about.
    Chairman Bucshon. That is fascinating.
    And I will start with Mr. Rachakonda on this next one. Have 
the activities you participated in during the robotics club, 
the FIRST competitions, changed your approach to your other 
schoolwork? And as a follow-up, have the activities changed how 
you think about problems or challenges outside of school?
    Mr. Rachakonda. Yes. I definitely think that, you know, 
that these challenges have really--Mr. Kamen talked about how 
synthesis--analysis and synthesis. I think that I have taken 
stuff from FRC where I have learned about certain robot parts 
or have learned about certain technologies and--or, you know, 
coding or whatever it is and I am able to understand that and 
cross-apply it to whatever I am doing in school. So, you know, 
we have technology classes in school. I am cross-applying what 
I learned in FIRST, what I learned in FRC to what I am learning 
in technology.
    And, you know, the--being in FIRST has allowed me to be in 
multiple internships, research-focused internships. From those 
research-focused internships I am now cross-applying that to in 
class, you know, we have to produce a research paper by the end 
of the year as part of the program that I am in. You know, you 
are in an internship and then from there you produce a 
scientific paper. And so some of the skills that I have learned 
from FRC in terms of time management, whatever it is, technical 
skills, I am able to apply that in that respect. So, yes, there 
definitely is a mixing between those two.
    Chairman Bucshon. Mr. Nette?
    Mr. Nette. From what I have experienced with FIRST, I have 
been mostly kind of a nuts-and-bolts guy if you will doing most 
of the physical work on the robot, and that was what inspired 
me to get into the computer science classes that we have at our 
school was because I wanted to learn more about how you make 
those things do what they are designed to do. And so definitely 
what FIRST has planted the seed for me to learn more about what 
it is all about, how you make things work. So it got me started 
and now I am seeking my own route outside of FIRST through my 
classes to learn more about the rest of things, and hopefully, 
I can come back to FIRST with my new knowledge and help 
possibly with the programming. Thank you.
    Chairman Bucshon. Excellent.
    Mr. Morris, how has--the things that you were learning in 
FIRST, has that changed your perspective on your other 
schoolwork or your activities outside of school?
    Mr. Morris. It hasn't so much changed the perspective I 
would say but it did--what I have learned in FIRST I have 
definitely been able to apply outside of school as with what my 
fellow witnesses were saying. FIRST takes up a lot of your time 
and you have to learn how to manage that time. You have to 
learn how to prioritize, and as well from being the leader of 
the team, I have learned how to lead people. These FIRST teams, 
they are volunteers. You can't fire them if they are not doing 
their job. So how do you motivate these people and engage them? 
And that is something that is not just--I can't just apply to 
FIRST but I can apply to science fair or any other group 
project where students--how do I get these people motivated? 
That is a big part of it.
    Chairman Bucshon. Ms. Crew, do you have comments on that 
subject?
    Ms. Crew. It definitely does affect your time management I 
think most of all since you are there--once the season starts, 
you are usually there pretty much almost every day of the week. 
So you have to figure out when you do your homework and all the 
other things. That is about all I have to take from it though 
since I am not quite involved with the computer science aspect 
of it so----
    Chairman Bucshon. Okay. Thank you, everyone.
    I now recognize the Ranking Member, Mr. Lipinski, for his 
questions.
    Mr. Lipinski. Thank you, Mr. Chairman. I just want to say 
that all of you, your testimony has been extremely impressive. 
I sit here and I think that when--well, now that Mr. Massie is 
gone, I can say this. You have probably put all of us--we all 
sitting up here probably look and say if only I were that good 
when I was that age. I can certainly say that for myself. But 
obviously, you all have great opportunities ahead of you for 
whatever you want to do. And I am sure if there are any parents 
out there, teachers out there, you have to be extremely proud 
of your child here. And I am sure Mr. Kamen sitting there is--
has to be extremely proud.
    I taught college before I was elected to Congress, but it 
is just very impressive what you have been able to do, and I 
just encourage you to keep it up. Obviously, you have put in a 
lot of hard work.
    Mr. Morris, you talked about the hours. How many hours do 
you spend--did you spend on FIRST?
    Mr. Morris. FIRST--the FIRST season is structured a lot 
like a sports season, so, first of all, we have our off-season 
and so that is we are preparing for our season. It is--that 
is--it is hard to kind of estimate how much but I would say at 
least three hours a week at least, and sometimes there will be 
big spates of work where we would be off at an outreach event, 
we will be volunteering for, you know, eight to ten hours a 
day.
    And then we get to the build season, which is when we 
construct our bot, and that is--at least on my team that is 
four to six hours every day after school as well as eight hours 
on Saturday, and that increases over the duration of the build, 
over the duration of the six weeks. And after the build, a few 
months later we go kind of back into preparation mode, and then 
we have got our competition and competitions are three days of 
very intense 24/7 work basically but also they are a lot of 
fun. So that is just kind of the summary of the hours. I don't 
know if some of these other teams work differently, but that is 
how my team works.
    Mr. Lipinski. Anyone else want to comment on--Mr. 
Rachakonda?
    Mr. Rachakonda. Yes. On average I would say I probably 
spend 10 hours a week on FIRST-related activities, on robotics 
club-related activities. And the work never stops. You know, 
they say, you know, like football never stops or whatever. You 
are still working on an off-season. You are still working on an 
off-season for FIRST. We have a team calendar the entire year. 
Every month we have to have something done. You know, June 
through August we have to manage--that is when we really try 
and set up our plan for the next year. That is when we want to 
get our corporate sponsorships, and that is ideally when we 
want to get everything rolling in because January through March 
we have to build our robot. And, trust me, nothing else is 
happening until the robot is done. So, you know, November 
through December we have to train our new members, we have to 
teach them programming, teach them how to use the skills. 
Safety training has to be done because we are working with 
power tools.
    So, yes, there are a lot of different aspects to it which I 
think is one of the most unique things about FRC. It is not 
just about the robot but you really are running--you know, I 
like to call it the world's toughest corporation because all 
your talent is gone in four years, everyone is volunteer, and 
the people who are leading it are all volunteer. And so it is 
very unique and that is what I think is very important about 
it. I guess my other students can also talk about that.
    Mr. Lipinski. Anyone else want to--Mr. Nette?
    Mr. Nette. I would violently agree with everything that has 
been said here. It certainly takes----
    Mr. Lipinski. Didn't you learn not to use that word here?
    Mr. Nette. It certainly takes a substantial amount of time, 
but yes, in the off-season you definitely have lots more time 
to go into the outreach aspect of FIRST, which is just as much 
a part of it as the build season is. It is about helping other 
people, gracious professionalism. Even during the build season 
we will help with other teams. We take a few under our wing and 
sometimes help them get started. So, yes, it is definitely a 
great experience and it doesn't end at the end of build season, 
but it definitely picks back up.
    Mr. Lipinski. Is there anything that--what can be done? Is 
there anything we could do, anything you could do what--in 
terms of encouraging more students to get involved? And I want 
to start with Ms. Crew because you obviously--you are coming at 
this--we are talking about all this technical, you know, stuff 
about the robotics and you are involved in a different part of 
FIRST. So is there anything that can be done to encourage more 
people--more kids to get involved?
    Ms. Crew. I think it definitely needs to be in more schools 
and it needs to be more--there needs to be more awareness about 
it. There is not nearly enough, you know, information on it. 
You know, at school they will always do announcements about 
what your sports teams did and reminding you to come out to the 
game and all that, and robotics is kind of--it is like an 
accidental secret. Nobody really has heard of it unless you 
have--you know somebody in it most of the time or we do 
something really incredible and it is on the announcements. So 
I think it definitely needs to be more--the word needs to be 
spread.
    Mr. Morris. Yes, I don't think that is really the fault of 
the teams. I think you have heard people mention outreach a 
lot. Spreading the message of FIRST is something that Dean is 
big on and the entire organization is big on, but like just 
trying to get access to the gym to use our robot to get like--
not to demean the sports teams at all, but to have the same 
kind of formality with the school is certainly something that 
would help you because we certainly think that this is just as 
important.
    Mr. Lipinski. Mr. Rachakonda?
    Mr. Rachakonda. I am sorry, just briefly. I think 
unknowingly or like whatever, it used to be that STEM and these 
kind of things were niche activities. They were just something 
that, you know, maybe in the '70s people would build train 
tracks, but that is not what it is anymore, you know, sample, 
model train tracks. But now it has become an athletic activity 
at least in the model of FRC. We have 50 students on our team. 
That is not your usual club. We run a budget of $25,000. That 
is not your usual club.
    And so that is where I think that if there was more 
awareness in terms of how to deal with these kind of STEM 
activities and recognizing this is not just another academic 
activity, this is not just Quiz Bowl, which I am also a 
participant in and it is great, but it is not just Quiz Bowl. 
It is something different and we need to recognize that and how 
we treat it. And, you know, Mr. Partovi was talking about how 
we treat computer science and everything, but in terms of 
activities, too, when you do realize that, that it is quite 
different.
    Mr. Lipinski. All right. Thank you very much.
    Chairman Bucshon. I now recognize Mr. Hultgren for five 
minutes.
    Mr. Hultgren. Thank you, Mr. Chairman.
    Thank you all for being here. And I just want to commend 
you for really going above and beyond. That--to me, that is 
really kind of the story of your work is this is above and 
beyond, an incredible commitment but also an incredible 
opportunity. And I really sense that, that you recognize what a 
great opportunity you have been given.
    A couple questions I have, one is I wonder if you could 
just talk briefly about how your parents first responded when 
you mentioned that you were interested in doing this and when 
you started talking about I guess some of the responsibilities, 
maybe driving or whatever that would be involved for them. How 
did they respond? We can just kind of go down the line or 
whoever wants to speak up.
    Mr. Rachakonda. Well, my mike is already on, but, yes, I 
think--well, for me at least, even from getting started in 
engineering and getting started in STEM, my entire family is, 
you know, in a STEM field. My dad is an engineer, my 
grandfather was an engineer. All of them went to West Virginia 
University actually, interesting, but I think that my parents 
were definitely very supportive of how I have approached this. 
And my dad, you know, he also--he is involved in a tech company 
or whatever and he has given me advice on how to approach 
running--because I am the president of my club, how to approach 
running, you know, whatever I do in FRC, whatever I do in 
FIRST. And so my parents have definitely been very supportive 
of it and I think that is what makes the difference for 
successful FIRST teams, successful FRC teams. You always see 
parent engagement, and I think that is something that is very 
important for, you know, the success of STEM programs 
especially because they can be very expensive and they can be 
very time-consuming.
    Mr. Nette. Of course my parents were very excited that I 
was ready to join the robotics team. At the time, our high 
school started in the eighth grade, which it does no longer. 
But--so I started on our FRC team in the eighth grade. That was 
the year where the game was Logo Motion, and at the end of the 
game there was a challenge to have a mini robot that would 
climb a pole at the end of the match as fast as it could, and 
so we kind of--the rest of the team graciously let us--let the 
eighth and ninth graders, who were trying to get into the swing 
of things, handle the mini bot challenge, and so that was kind 
of our own undertaking and we worked through that problem on 
our own.
    So, yes, I just kind of jumped right into it and hopefully 
in the near future we are trying to start a FTC team in our 
school district so that the student at the middle school don't 
necessarily have to wait until high school because there is 
that gap between FLL and FRC.
    Mr. Morris. All right. There is a philosophy among FIRST--
some FIRST teams that adults are only there to sign the checks, 
but in my experience you can't run an organization like this 
without parents. They not only have to be supportive--my 
parents are very supportive--but they also have to be involved 
and they have to--I think the biggest part of that is having 
them understand the advantages FIRST has for these kids because 
when these kids are spending four hours a day, six hours a day, 
eight hours on weekends working at the school and their parents 
are just like, what? What are you guys doing? What are you 
getting out of this? So the teams can--we can talk at the 
parents about, you know, what are the advantages of this? Why 
do you want your kids doing this? But I think it gives more 
credence to the--it gives more kind of weight to the argument 
when other adults are telling the other adults this is why this 
is important, this is why you should be not only happy but 
supportive of your kid for doing this because there are people 
on the team whose parents don't want them to be in FIRST, and I 
think that is really quite sad.
    Ms. Crew. My family had some kind of mixed emotions for a 
while. My mom was not happy about it taking up so much time 
during the build season because you are there basically every 
single day. We have Wednesdays off at my team but every other 
day you are there and longer on weekends than the other days. 
So she wasn't exactly happy about that and it is very time-
consuming and she didn't know how I was going to get there. My 
dad, though, he was pretty interested in it. He thought it was 
really cool so he kind of helped convince her of it. And he 
actually got involved in it, too, as a mentor. He is now the 
documentation mentor at our team, so he just drives my sister 
and I--my sister is now on the team, too--to it every day and 
it generally kind of works.
    Mr. Hultgren. That is great. If I could, any parents who 
are here, if you don't mind just raising your hand, any 
parents?
    Thank you. I know it is a huge commitment and I just want 
to commend you for your involvement and engagement.
    I would love to get into more talking about mentors as 
well. Certainly, parents are part of that but also some of the 
other mentors that you have mentioned, certainly some who are 
in the room, some who have joined with you today. But I saw 
that so clearly with my team Got Robot? back in my area that 
relationships and the commitment of mentors, giving so much of 
their time and not getting paid, if they are paid, really not 
much at all, but seeing this vision of pouring into you the 
opportunity that they wish they would have had when they were 
your age, and that is really, really cool.
    So I would ask are they any mentors in the room as well?
    So thank you all so much for your commitment as well of 
being mentors. That is amazing.
    One of my fears is that we see with challenges we are 
facing in Congress some of the cuts that are coming are to the 
Department of Energy, to STEM education mentorship programs, 
and we have got to do everything we can to fight against that. 
That is exactly what we need more of is more mentorship. And 
when--especially when we see teachers being so stretched or 
maybe not even having the passion or the desire to put in this 
time commitment, yet a mentor is willing to do that, some 
teachers certainly willing to be mentors as well, but this is 
something I want to continue to focus on and make sure that the 
funding is there for that and we do everything we can to 
encourage this.
    So thank you. I just am inspired by the work that you are 
doing. Thank you, parents. Thank you, mentors. And anything you 
all can be doing and that we can be doing as Members of 
Congress just to be spreading the word of how important this is 
and how much this makes sense.
    I will wrap up if I can, Mr. Chairman, just by talking 
about Mr. Rachakonda--is that right--talked about going to 
Japan. It sounds like an incredible experience--but how they 
are modeling what we have done, my fear is that we are going to 
lose that cutting-edge that we are really the place that is--
the rest of the world looks to as the innovative nation. And 
there are so many other nations that are ready to do that, and 
I think STEM education and programs like FIRST are absolutely 
key for us of what type of nation are we going to be in the 
next 5, 10, 20 years. I want to make sure that we are 
continuing on that forefront, that we are the nation that every 
other nation is looking to to see how does America do it and 
then let's follow what they are doing rather than falling 
behind, and that is my fear.
    Thanks, Mr. Chairman, for your indulgence.
    Chairman Bucshon. Thank you. Without objection, the Chair 
now recognizes Ms. Edwards for five minutes.
    Ms. Edwards. Thank you, Mr. Chairman, and to the Ranking 
Member. And again, I really do appreciate your enabling me to 
sit in today.
    I am here today principally because two of the students are 
from the counties that I represent, and I feel very proud of 
the work that we are trying to do in our school systems to 
enable this kind of learning. But I am curious from each of you 
what aspects of your academic curricula during the school day 
contribute and how does it contribute to what you are doing in 
your club activities?
    Mr. Rachakonda. Well, I think that definitely--that, you 
know--I mean it is a STEM activity at heart, right, and I think 
that definitely my physics curriculum, everything I do in 
chemistry, all these different things are definitely--have 
helped me in understanding what goes on. I think that, you 
know, some of the advanced classes that I have taken have 
helped me understand what goes on at the heart of these 
robotics very clearly, and I feel that, you know, they were 
talking about the curriculum earlier, and I am not well versed 
enough to say anything to pass judgment on those curriculum, 
but I feel that I have learned a lot in school that has been 
useful in FIRST, and I felt the same way vice versa. So, you 
know, the subject matter is the subject matter and maybe in 
different schools it is being taught differently, taught worse, 
taught better, whatever it is, but I think that at heart for me 
that the academic subjects are very applicable in FIRST and all 
these STEM activities.
    Ms. Edwards. Thank you.
    Ellana, I wonder if you could share with us--because you 
are in a different part of the aspect of the program--the parts 
of your academic work that facilitates what you are doing with 
FIRST or not?
    Ms. Crew. Mine doesn't actually have a whole lot of 
contribution. I am in just standard classes. I was never in 
STEM. I was hardly ever allowed to really be in honors because 
like the special ed department was worried that I wouldn't be 
able to handle the workload and before like tenth grade they 
were kind of right. I didn't have the greatest work ethic. But 
I do sometimes need a lot of people work, so I guess the way 
they have you work together does kind of help.
    Ms. Edwards. Thank you. Either of you--of our other two 
panelists?
    Mr. Morris. A lot--the--I will have to--actually have to 
say that a lot of like the physics and the calculus we learn in 
school, you don't get a chance to like--what you are doing in 
FIRST is--it is more hands-on, so sometimes you have trouble 
like kind of rectifying the--reconciling the--what you have 
learned in school, what you have learned in FIRST, but it is 
like--I don't see any--there is--I don't think there is like a 
better way of doing it than FIRST because FIRST--what you have 
in school is you have your curriculum. What you have in FIRST 
is you are hands-on, and those things aren't mutually exclusive 
but FIRST teaches the hands-on I think better then, you know, 
school ever possibly could.
    Mr. Nette. The math and science classes of course prepare 
us somewhat for what you are going to do on FIRST, but in math 
when you take a test or something, they tell you what equation 
you have to use to solve the problem, but when you are doing 
this in the real world, you have to figure that part out 
yourself also. You have to figure out what equation to use, 
then which numbers to put where and all that. Being a junior I 
haven't gone into some of the more advanced math and science 
classes yet, but on another note, one of the things that our 
team is trying to do this year is to engage some of the 
students from aspects outside of STEM like the English students 
and the history students, too, because there is of course 
functions that they can do on our team. There are awards that 
you have to write essays for and all accounting and all that, 
so economics classes and everything play into it. So we are 
trying to reach out beyond STEM and have some position for 
everyone in all the classes on our team.
    Ms. Edwards. Thank you. I want to just get to one thing. 
Our earlier panel talked about this idea of failure, and it is 
a thing that I have been kind of wrapped up in since I have 
been in Congress because I think sometimes we don't put 
resources into things because something fails and then you 
experiment with it. Can you all share with us what you have 
done that failed that you learned from and the value of that?
    Mr. Morris. I will actually--I will start on this. The 
first game--the competition--you are designed to fail. They 
give you way too many requirements with way too little time, 
and so you are going to mess up. I am sure every team here has 
had, you know, robots that maybe didn't have--you know, didn't 
perform as awesomely as they had hoped because--but it is 
really--the core of the engineering challenge of FIRST is not 
just building the robot, it is prioritizing to say, all right, 
what aspects of this are we going to concentrate on and how are 
we going to concentrate on that? And if you fail, then--I mean 
you just--it is not like--this is FIRST. This isn't a--real 
life and so you--this is a place where you can fail and learn 
from your failures without the consequences being too heavy.
    Chairman Bucshon. Thank you very much.
    Thank you for all of our witnesses. Again, as Mr. Massie 
pointed out, you have probably done a better job testifying in 
front of Congress than maybe I would. I have four kids and I 
have found this to be one of the most fascinating hearings I 
have ever attended. I mean that sincerely. So I would like to 
thank all the witnesses for your very valuable testimony.
    And the Members of the Committee may have additional 
questions for you and we will ask you to respond to those in 
writing. The record will remain open for two weeks for 
additional comments and written questions from the Members.
    At this point, the witnesses are excused and the hearing is 
adjourned.
    [Whereupon, at 12:55 p.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
